<html>
<title> - REDUCING NUCLEAR AND BIOLOGICAL THREATS AT THE SOURCE</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




         REDUCING NUCLEAR AND BIOLOGICAL THREATS AT THE SOURCE

=======================================================================

                                HEARING

                               before the

      SUBCOMMITTEE ON PREVENTION OF NUCLEAR AND BIOLOGICAL ATTACK

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 22, 2006

                               __________

                           Serial No. 109-87

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                     




  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________


                    U.S. GOVERNMENT PRINTING OFFICE

33-959 PDF                  WASHINGTON : 2007
------------------------------------------------------------------
For sale by Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800;
DC area (202) 512-1800 Fax:  (202) 512-2250. Mail:  Stop SSOP, 
Washington, DC 20402-0001


























                     COMMITTEE ON HOMELAND SECURITY

                   Peter T. King, New York, Chairman

Don Young, Alaska                    Bennie G. Thompson, Mississippi
Lamar S. Smith, Texas                Loretta Sanchez, California
Curt Weldon, Pennsylvania            Edward J. Markey, Massachusetts
Christopher Shays, Connecticut       Norman D. Dicks, Washington
John Linder, Georgia                 Jane Harman, California
Mark E. Souder, Indiana              Peter A. DeFazio, Oregon
Tom Davis, Virginia                  Nita M. Lowey, New York
Daniel E. Lungren, California        Eleanor Holmes Norton, District of 
Jim Gibbons, Nevada                  Columbia
Rob Simmons, Connecticut             Zoe Lofgren, California
Mike Rogers, Alabama                 Sheila Jackson-Lee, Texas
Stevan Pearce, New Mexico            Bill Pascrell, Jr., New Jersey
Katherine Harris, Florida            Donna M. Christensen, U.S. Virgin 
Bobby Jindal, Louisiana              Islands
Dave G. Reichert, Washington         Bob Etheridge, North Carolina
Michael T. McCaul, Texas             James R. Langevin, Rhode Island
Charlie Dent, Pennsylvania           Kendrick B. Meek, Florida
Ginny Brown-Waite, Florida

                                 ______

      SUBCOMMITTEE ON PREVENTION OF NUCLEAR AND BIOLOGICAL ATTACK

                     John Linder, Georgia, Chairman

Don Young, Alaska                    James R. Langevin, Rhode Island
Christopher Shays, Connecticut       EdwarD J. Markey, Massachusetts
Daniel E. Lungren, California        Norman D. Dicks, Washington
Jim Gibbons, Nevada                  Jane Harman, California
Rob Simmons, Connecticut             Eleanor Holmes Norton, District of 
Bobby Jindal, Louisiana              Columbia
Charlie Dent, Pennsylvania           Donna M. Christensen, U.S. Virgin 
Peter T. King, New York (Ex          Islands
Officio)                             Bennie G. Thompson, Mississippi 
                                     (Ex Officio)

                                  (II)



























                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable John Linder, a Representative in Congress For the 
  State of Georgia, and Chairman, Subcommittee on Prevention of 
  Nuclear and Biological Attack..................................     1
The Honorable Charlie Dent, a Representative in Congress For the 
  State of Pennsylvania..........................................    35
The Honorable James R. Langevin, a Representative in Congress For 
  the State of Rhode Island......................................     2
The Honorable Edward J. Markey, a Representative in Congress For 
  the State of Massachusetts.....................................    40
The Honorable Norman D. Dicks, a Representative in Congress For 
  the State of Washington........................................    37
The Honorable Eleanor Holmes Norton, a Representative in Congress 
  For the District of Columbia...................................    58

                               WITNESSES

Jerry Paul, Princicpal Deputy Administrator, National Nuclear 
  Security 
  Administration, Department of Energy:
  Oral Statement.................................................     4
  Prepared Statement.............................................     6
Frank Record, Acting Assistant Secretary, Bureau of International 
  Security and Nonproliferation, Department of State:
  Oral Statement.................................................    12
  Prepared Statement.............................................    15
Jack David, Deputy Assistant Secretary, International Security 
  Policy, 
  Department of Defense:
  Oral Statement.................................................    22
  Prepared Statement.............................................    25
Dr. Igor Khripunov, Associate Director, Center for International 
  Trade and Security, University of Georgia:
  Oral Statement.................................................    43
  Prepared Statement.............................................    45
Dr. David Franz, Vice President and Chief Biological Scientist, 
  Midwest 
  Research Institute:
  Oral Statement.................................................    50
  Prepared Statement.............................................    52


























 
         REDUCING NUCLEAR AND BIOLOGICAL THREATS AT THE SOURCE

                              ----------                              


                        Thursday, June 22, 2006

             U.S. House of Representatives,
                    Committee on Homeland Security,
                              Subcommittee on Prevention of
                             Nuclear and Biological Attack,
                                                   Washington, D.C.
    The subcommittee met, pursuant to call, at 2:00 p.m., in 
Room 2212, Rayburn House Office Building, Hon. John Linder 
[chairman of the subcommittee] presiding.
    Present: Representatives Linder, Gibbons, Dent, Langevin, 
Markey, Dicks and Norton.
    Mr. Linder. The Committee on Homeland Security Subcommittee 
on Prevention of Nuclear and Biological Attack will come to 
order.
    Today, the subcommittee meets to hear testimony on reducing 
nuclear and biological threats at their source. I want to thank 
our distinguished witnesses for appearing today.
    The end of the Cold War and the breakup of the former 
Soviet Union dramatically reduced the chances of an all-out 
nuclear and biological war with the United States. The legacy 
of its nuclear and biological weapons program, however, still 
has the potential of doing enormous harm. Unsecured nuclear 
material, unemployed biological weapons experts and the 
patchwork of administrative controls opens the door for a 
terrorist group to acquire that material or use the skills of 
those scientists to launch an attack on the United States.
    Today, this subcommittee will hear about U.S. and 
multilateral efforts to secure nuclear and biological material 
and redirect former weapon scientists into peaceful endeavor. 
We have no room to fail in this mission.
    The detonation of a nuclear device in the United States or 
the dispersal of a biological agent must be prevented, and 
prevention is best achieved at its source. Encouragement 
efforts being made through various agencies before us, 
bilateral projects with Russia, such as the various cooperative 
threat reduction programs, for example, are helping to secure 
nuclear warheads and biological pathogens and to stabilize 
employment for nuclear and biological experts.
    U.S. partnering with organizations like the International 
Atomic Energy Agency and the nations of the G8 must continue to 
take the lead in keeping nuclear and biological materials out 
of the hands of terrorists. Recent examples demonstrate this 
success, including the removal of eight nuclear weapons worth 
of highly enriched uranium over the last 2 years. For the past 
year, this effort led to the conversion of three research 
reactors from the use of highly enriched uranium--which can be 
used in a nuclear weapon--to the use of low-enriched uranium, 
thereby limiting the risk of theft.
    On the biological side, a U.S.-Russian collaboration led to 
the discovery of highly pathogenic avian flu in birds in 
Siberia in 2005. To date, the U.S. has gained access to nearly 
a dozen former biological weapons facilities. Securing nuclear 
and biological material is only half the weapon, though. 
Redirecting former weapons scientists into peaceful and 
productive of work and discouraging them from disclosing 
secrets to terrorist networks not only requires a coordination 
between governments but also the creation of an environment of 
awareness among scientists around the world.
    The sheer numbers of scientists with a skill set that could 
be used by terrorists could quickly overwhelm any state-
sponsored control effort. Self-regulation and the importance of 
a security culture in a nuclear and biological science arena is 
the focus of our second panel of witnesses, and I look forward 
to hearing how Congress can encourage these effects.
    The hope through this hearing, in the testimony of our 
witnesses today, is that we can continue to pressure the 
international community to make good on the $20 billion pledge 
to prevent acts of terrorism using weapons of mass destruction 
that was made initially at the June of 2002 G8 Summit.
    With that, I now recognize my friend from Rhode Island, Mr. 
Langevin, the ranking member of this subcommittee, for any 
statement he would like to make.
    Mr. Langevin. Thank you, Mr. Chairman.
    I would like to welcome our witnesses today, and I look 
forward to hearing their testimony certainly.
    After listening to witnesses at hearings and briefings held 
by this subcommittee, I feel that our government must move 
quickly to accelerate our efforts to secure nuclear and 
biological material at the source.
    Now we have learned about the relative ease with which a 
terrorist can build a crude nuclear device, and we must do all 
we can to prevent them from obtaining nuclear materials. We 
know that securing biological weapons and materials is much 
more difficult due to the dual nature of technology and the 
ability to grow a lot of bioweapon agent from a small amount. 
So I am very interested to hear how our efforts are proceeding 
on this front.
    Given the fact that a majority of fissile materials and 
bioweapons labs are located in Russia and its former republics, 
I would like to get a sense of how well we are doing in the 
former Soviet Union as well. Security of fissile materials in 
Russia still concerns me, especially after the National 
Intelligence Council reported in December of 2004 that 
undetected smuggling of nuclear materials has occurred at 
Russian weapons facilities.
    Last November, this subcommittee held a hearing at which a 
senior official from the Department of Energy stated that his 
Russian counterpart informed him that there were 200 cases of 
suspected nuclear and radiological material last year. This 
testimony, coupled with the National Intelligence Council 
report, doesn't give me great confidence in the security of 
fissile materials abroad and leads me to believe that if we 
don't move quickly this material will end up in the wrong 
hands.
    Now, according to the June, 2004, National Commission on 
Terrorist Attack report, al Qaeda continues to pursue its 
strategic objective of obtaining nuclear weapons. I strongly 
believe that nonproliferation is the best way for the U.S. to 
protect itself from a WMD attack. It is my hope that by holding 
these hearings, even though this committee does not have 
jurisdiction--oversight jurisdiction--we can highlight the fact 
that these programs are our best chance at securing these 
weapons.
    Nonengagement and threats, the strategy our government has 
taken also both with North Korea and Iran until very recently, 
has not worked. The strategy, in fact, has put our country, I 
believe, in danger, highlighted by the possibility that 
material from North Korea could each our shores--I am sorry, a 
missile from North Korea could each our shores.
    For our effort to be successful, greater funding and 
diplomacy will be needed to complete the important work in 
Russia and address these new situations that we now face.
    Finally, I would like to hear from our witnesses on how our 
government could better coordinate its nonproliferation 
programs. A GAO report issued in January of 2005 stated there 
was no overall plan that integrates the programs carried out by 
the Department of Defense and the Department of Energy. 
Integration is critically important as our government looks to 
expand its nonproliferation programs beyond Russia.
    As I have said in previous hearings, we must begin to move 
with a sense of urgency to prevent terrorists from executing a 
nuclear or biological attack on our shores, and that begins 
with securing weapons material at its source.
    Thank you, Mr. Chairman. I look forward to hearing from our 
witnesses.
    Mr. Linder. Thank you, Mr. Langevin.
    Mr. Linder. We are pleased to have two panels of 
distinguished witnesses before us today. Our first panel, I 
will begin with Mr. Jerry Paul. Mr. Paul is a Principal Deputy 
Administrator of the U.S. National Nuclear Security 
Administration. He has responsibility for overseeing a variety 
of nuclear net reduction programs, including the Global Threat 
Reduction Initiative.
    From the Department of State, we have Mr. Frank Record. Mr. 
Record is the Acting Assistant Secretary of the Bureau of 
International Security and Nonproliferation. He is responsible 
for managing a broad range of nonproliferation, counter 
proliferation and arms control functions.
    And, finally, we will hear from Mr. Jack David, Deputy 
Assistant Secretary of Defense for International Security 
Policy, Office of the Secretary of Defense. His office provides 
direction to the Defense Threat Reduction Agency, which 
implements a Cooperative Threat Reduction program. CTR is also 
known as a Nunn-Lugar program and has been the flagship for 
U.S. threat reduction for more than a decade.
    Let me remind the witnesses that your testimony will be 
part of the record. We would like to ask you to summarize in 5 
minutes.
    Mr. Linder. Mr. Paul.

          STATEMENTS OF JERRY PAUL, PRINCIPAL DEPUTY 
   ADMINISTRATOR, NATIONAL NUCLEAR SECURITY ADMINISTRATION, 
                      DEPARTMENT OF ENERGY

    Mr. Paul. Mr. Chairman, thank you for focusing on our 
Nation's nonproliferation activities and on the work of the 
Department of Energy and providing us with this opportunity to 
testify today. It is an honor to be here. It is a pleasure to 
be here with my colleagues from the State Department and 
Department of Defense.
    In particular, I appreciate the opportunity to highlight 
the activities to date on the U.S.-Russian Senior Interagency 
Working Group on Nuclear Security Cooperation established by 
Presidents Bush and Putin, commonly referred to as the 
Bratislava Initiative.
    In the aftermath of September 11, we have intensified our 
efforts to keep nuclear materials and nuclear weapons out of 
the hands of terrorists. The NNSA has accelerated and expanded 
its implementation of what we call a five-pronged strategy to 
deny terrorists and states of concern the materials, the 
technology, and the expertise that would be needed to develop 
nuclear weapons.
    Those five prongs are: one, to account for and secure 
nuclear material in Russia and the former Soviet Union; two, to 
detect and prevent the movement or trafficking of weapons-
grade, weapons-usable technologies and usable nuclear 
materials; three, to stop the production of new fissile 
material in Russia; four, to eliminate existing weapons-usable 
material; and, finally, number five, eliminate or consolidate 
the remaining weapons-usable nuclear material and radiological 
materials that exist throughout the remainder of the world.
    I should also point out that, underpinning our policy 
initiatives, we maintain a vigorous nonproliferation research 
and development program conducting applied research, 
development, testing and evaluation to produce the technologies 
that lead to detection systems strengthening the U.S. response 
to current and projected threats to national security 
worldwide.
    The R&D program is the technical base that provides our 
policy programs and operational agencies, including the 
Department of Defense, the Department of Homeland Security and 
the Intelligence Community, with innovative systems and 
technologies to meet the U.S. government's nonproliferation, 
counter-proliferation and counter-terrorism mission 
responsibilities. The NSA invests in strategic and often high-
risk technical solutions to detect the proliferation of WMD.
    Now, building on the above outline of our five-pronged 
strategy and our priorities, I now turn to the Bratislava 
Senior Interagency Working Group and its progress to date.
    As you know, this working group came out of the February, 
2005, meeting in Bratislava between President Bush and 
President Putin where they, together, issued a statement 
outlining efforts to enhance our nuclear security cooperation. 
They established a Bilateral Senior Interagency Working Group 
co-chaired by Secretary Sam Bodman at the Department of Energy 
and also Director Sergei Kiriyenko of the Russian Federal 
Atomic Energy Agency, or Rusatom, as it is more commonly known.
    Our expanded nuclear security cooperation for Bratislava is 
in five distinct areas: emergency response cooperation, 
exchanging best practices, focusing on security culture, 
collaboration on issues related to research reactors, and 
nuclear security cooperation, which is largely MPC&A material 
protection and control accountability measures.
    First, as to the emergency response, this component of the 
Bratislava Initiative envisions cooperation in enhancing 
emergency response capabilities to deal with a nuclear or 
radiological incident, including the training and development 
of additional technical methods to detect nuclear and 
radioactive materials involved in the incident. To address 
this, a U.S.-Russian expert working group on emergency response 
was established to review current and future activities in the 
areas of incident response and consequence management.
    The plans for next year include further discussions on 
nuclear incident response and consequence management 
methodologies, plans and preparations for such incidents. The 
group plans to move on from a tabletop exercise--which we have 
done--to a field exercise in Russia with experts late this 
year. The scenario we will focus on is on search and 
consequence management for a terrorist radiological event.
    This initiative is truly an important partnership in the 
global war on terror. In addition to preventing and responding 
to nuclear radiological incidents, both our nations really do 
need to be prepared to mitigate the consequences in the event 
of the unthinkable.
    Best practices. The idea behind this task was to have high-
level nuclear security practitioners from both of our countries 
work together on common problems and to share solutions and 
methodologies to those problems and how to address them.
    Prior to Bratislava, the majority of our bilateral nuclear 
work had taken place really at the site or local level with 
security managers. But for this effort we enlisted the help of 
those in our organization outside our Russian cooperative 
programs, those who are actually tasked with providing and 
overseeing nuclear security at our facilities across the United 
States, for example.
    The countries have agreed to continue collaborating in the 
area of nuclear security best practices and have begun a 
dialogue on topics to be discussed at the next meeting, which 
we are planning for this fall.
    As for third-country consultations, both countries are 
reviewing how best to accomplish this. We think it is essential 
for the U.S. and Russia to have a common understanding of what 
those best practices are, and we have worked continually to 
better define those and come to agreement on what those best 
practices are and also share those with third countries. We are 
anticipating at least one more round of bilateral workshops 
before any kind of consensus can actually be reached, but we 
will certainly report that to you as it develops.
    On security culture. It is important, in addition to best 
practices, that we focus on security culture; and the joint 
statement says this when it mentions calling for the fostering 
of disciplined, well-trained and responsible custodians and 
protective forces and fully utilized and well-maintained 
security systems. The concept of security culture has been the 
topic at many international meetings. It is an issue that we 
provide leadership on through the IAEA, and it is one where we 
feel as though we are making more and more progress in Russia.
    Research reactors. We are very proud of the progress that 
we have made on converting research reactors, as the 
Congressman mentioned a moment ago, three research reactors 
converted post Bratislava, two Russian design, one of U.S. 
design; and we continue to make good progress on converting the 
others on the list.
    We have worked in this area with Russia for many years, 
but, as I mentioned earlier, in order to accelerate and 
expedite that important work that is yet to be done we 
consolidated several programs under the GTRI or Global Threat 
Reduction Initiative in 2004. We have made a lot of progress. 
The experts on both sides, pursuant to Bratislava, have agreed 
to a prioritized schedule for all of the remaining Russian-
origin fresh fuel shipments and agreed that they will be 
completed by 2006 and, for the spent fuel shipments, by 2010. 
In order to meet that schedule, a joint U.S. DOE-Rosatom 
technical working group will be operating under a joint 
coordinating committee with the objective of accelerating and 
coordinating those preparations.
    We are also working, as I mentioned earlier, on the 
development of high-density, low-enriched uranium fuels to 
convert the remaining reactors from high-enriched uranium. We 
will continue to leverage our assets at the national 
laboratories and throughout the United States complex in order 
to develop that work, and we feel good about the progress that 
we have made so far.
    I would also like to note that, while in these areas the 
work has been preceding for several years, Bratislava really 
did help to accelerate the timetable and helped us set more 
aggressive schedules, if you will, and gain enhanced Russian 
commitment to this important work.
    Mr. Linder. Your time is up by about 4 and a half minutes.
    Mr. Paul. With that, Mr. Chairman, I will simply close and 
look forward to taking questions.
    Mr. Linder. Thank you. Thank you very much.
    [The statement of Mr. Paul follows:]

                    Prepared Statement of Jerry Paul

    Mr. Chairman, thank you for focusing on the nonproliferation 
activities of the U.S. Department of Energy's National Nuclear Security 
Administration (NNSA) and providing this opportunity to testify. In 
particular, I appreciate the opportunity to highlight our activities to 
date under the U.S.-Russian Senior Interagency Working Group on Nuclear 
Security Cooperation established by Presidents Bush and Putin at 
Bratislava in February of 2005 and related accomplishments.
    I will begin by briefly outlining NNSA's overall strategy to place 
into context our work under the Senior Working Group, commonly referred 
to as "The Bratislava Initiative."
    In the aftermath of 9/11, we have intensified our efforts to keep 
nuclear material and nuclear weapons out of the hands of terrorists. 
The NNSA has accelerated and expanded its implementation of a five-
pronged strategy to deny terrorists and states of concern the 
materials, technology, and expertise needed to develop nuclear weapons.
First: To account for and secure nuclear material in Russia and the 
former Soviet Union.
    To date, we have secured over 80 percent of the sites where these 
materials are stored and we are on course to finish all of our security 
upgrades by 2008--a full two years ahead of the schedule established 
prior to 2001.
    With over 95 percent of the warhead and nuclear fuels sites 
completed, we will finish our work to secure Russian Navy warhead and 
nuclear fuel sites in FY 2006. We are moving rapidly to secure all 
remaining 12th Main Directorate and Strategic Rocket Forces warhead 
sites on an accelerated schedule, by the end of 2008.
Second: To detect and prevent the movement or trafficking of weapons-
usable technologies and useable nuclear materials.
    Through our Second Line of Defense and Core and Megaports programs, 
we are working with other countries to install radiation detection 
equipment at key transit choke points throughout the world - such as 
sea ports, airports, and land border crossings--to improve our ability 
to detect movement of nuclear and radiological materials.
    Coordinated cooperation with the Department of Homeland Security 
and the State Department is vital to the successful implementation of 
this global program. Our staffs work together on a regular basis to 
streamline communication, eliminate overlaps in responsibility, and 
identify potential security gaps where added attention is necessary.
    We have installed radiation detection equipment at more than 80 
border crossings (rail crossings, vehicle crossings, small seaports) 
and we have taken responsibility for additional radiation detection 
equipment at approximately 50 locations originally equipped by the 
State Department and other agencies. We have already equipped six 
Megaports--Algeciras, Bahamas, Colombo, Rotterdam, Singapore (pilot) 
and Piraeus. We expect to complete installations at one more Megaport 
this year, and are installing equipment at ten additional ports. We 
plan to sign new agreements at five additional Megaports this fiscal 
year.
    We are also training front-line enforcement officers worldwide, to 
interdict illicit technology transfers, and we are helping states 
strengthen nuclear safeguards needed to secure nuclear materials. It is 
critical that states take on responsibilities for meeting global 
nonproliferation responsibilities. These programs help realize that 
objective.
Third: To stop the production of new fissile material in Russia.
    In 1997, the U.S. signed an agreement with the Russian Federation 
providing for the cessation of production of weapons-grade plutonium 
that could be used in nuclear weapons, expediting the shut down of 
Russia's last three plutonium-producing nuclear reactors. In March 
2003, the two governments signed an amendment to the agreement under 
which the USG would assist in providing fossil fuel plants to supply 
alternative energy sources thereby allowing Russia to shut down the 
reactors and cease production of new plutonium.
    We are making progress in this area. We began construction work at 
the first site, Seversk, last year and started construction at the 
other site, Zheleznogorsk, earlier this year, with expected completion 
dates of 2008 and 2011 respectively.
Fourth: To eliminate existing weapons-usable material.
    More than 270 metric tons of Russian Highly Enriched Uranium (the 
equivalent of about 11,000 warheads) from dismantled weapons have been 
down-blended to low-enriched, non-weapons grade material for use in 
commercial power reactors pursuant to the HEU Agreement or what is 
often called the "Megatons to Megawatts" program. Altogether, 500 
metric tons of Russia's HEU will be converted and used to support 
civilian nuclear power here in the United States at little or no cost 
to the American taxpayer. This down-blended material accounts for 10 
percent of U.S. electricity production. In other words, in effect one 
in every ten light bulbs in America is powered by material that was 
once contained in a Soviet nuclear warhead.
    Additionally, we are working with the Russians to eliminate 34 
metric tons of weapons-grade plutonium in each country, enough for over 
17,000 nuclear weapons, through our plutonium disposition programs.
Fifth: To eliminate or consolidate the remaining weapons-useable 
nuclear and radiological materials that exist throughout the remainder 
of the world.
    In May 2004, DOE launched the Global Threat Reduction Initiative--
"GTRI"--to identify, secure, recover and facilitate the disposition of 
vulnerable nuclear and radiological materials around the world.
    Under the GTRI program, we are converting research reactors around 
the world from highly-enriched uranium (HEU) fuel to low enriched 
uranium (LEU) fuel.
    We are working with the Russian Federation to develop technologies 
that will enable the conversion from HEU to LEU fuel of Russian-
designed research and test reactors in third countries.
    We signed an agreement with Russia that provides the overall legal 
framework for repatriating Russian HEU nuclear fuel from Russian-
supplied research reactors located around the world for safe storage 
and disposition. To date, we have completed 12 shipments of HEU fresh 
and spent nuclear fuel under this program.
    Last fall, we took the actions necessary to extend the period 
during which spent nuclear fuel containing HEU of U.S. origin could be 
repatriated to the United States and continue to accept shipments from 
around the world.
    GTRI reduces the risk of radiological materials being used in a 
radiological dispersal device by working cooperatively with foreign 
counterparts to locate, recover, consolidate, and enhance the security 
of high-risk radioactive materials. To date, the program has completed 
security upgrades in more than 40 countries containing radiological 
sources of concern.
    We are also securing weapons expertise through joint collaboration 
and alternate infrastructure development. Through the Department's 
Global Initiatives for Proliferation Prevention ("GIPP") program we are 
engaging former weapons experts in nuclear, chemical and biological 
weapons institutes in Russia and the Former Soviet Union (FSU). We 
often say that the proliferation threat has three elements including 
technology, materials, and expertise. This program addresses the third 
element. By redirecting weapons scientists to peaceful, commercially 
viable activities, we reduce the likelihood that these individuals will 
want to work with proliferators and reduce the likelihood that a 
terrorist organization will be able to recruit them.
    Underpinning these policy initiatives, we maintain a vigorous 
Nonproliferation Research and Development (R&D) Program conducting 
applied research, development, testing, and evaluation to produce 
technologies that lead to detection systems strengthening the U.S. 
response to current and projected threats to national security 
worldwide posed by the proliferation of weapons of mass destruction and 
the diversion of special nuclear material. The R&D program is the 
technical base that provides our policy programs and operational 
agencies (including the Department of Defense, the Department of 
Homeland Security, and the Intelligence community) with innovative 
systems and technologies to meet the U.S. Government's 
nonproliferation, counter-proliferation, and counter-terrorism mission 
responsibilities. NNSA invests in strategic and often high-risk 
technical solutions to detect the proliferation of WMD.
    Building on the above outline of our strategy and priorities, I now 
focus on the Senior Interagency Working Group and its progress to date.
    As you know, this working group came out of the February 2005 
summit in Bratislava between President Bush and President Putin. 
Together they issued a joint statement outlining efforts to enhance our 
nuclear security cooperation. They established a bilateral Senior 
Interagency Working Group co-chaired by Secretary Bodman of the 
Department of Energy and by Director Kiriyenko of the Russian Federal 
Atomic Energy Agency, or Rosatom, as it is more commonly known.

Our expanded nuclear security cooperation has five distinct areas:
    1. Emergency Response Cooperation
    2. Exchanging "Best Practices"
    3. Focus on "Security Culture"
    4. Collaboration on issues related to Research Reactors
    5. Nuclear Security Cooperation (MPC&A efforts)

    Before I go into more detail on each of these areas of cooperation 
and what has been accomplished to date, I want to describe a little of 
the history behind the joint statement made in Bratislava, Slovak 
Republic.
    Some of the areas of cooperation that we talk about as "efforts 
under Bratislava" you will recognize as work we have been conducting 
with our Russian partners for several years. This includes our research 
reactor conversion program, our spent and fresh fuel repatriation 
program, and our nuclear security cooperation, all of which I noted 
earlier in my remarks as part of our ongoing strategy. We have also 
been collaborating with Russia for over 5 years to improve their 
emergency management infrastructure. So why announce a need to further 
enhance cooperation?
    Because it was important to raise our collaboration to the highest 
levels of Government in order to accelerate our efforts across a 
spectrum of activities in a well coordinated fashion. The President has 
stated that the gravest threat to the United States is the possibility 
of terrorists acquiring weapons of mass destruction, including nuclear 
weapons. At Bratislava, Presidents Bush and Putin committed to working 
to enhance cooperation to counter this threat by building upon our 
earlier work and to expand, accelerate, and deepen this cooperation.
    The NNSA works directly with many agencies within the Russian 
Federation, most notably Rosatom, but also the Ministry of Defense, 
Rostechnadzor (which is analogous to our Nuclear Regulatory 
Commission), the Ministry of Transportation, the Ministry of Foreign 
Affairs and other organizations. For the most part, we can accomplish 
much at the program staff level. In order to expedite cooperation in 
some areas, however, we must engage the most senior levels of 
Government. Bratislava has given our programs more momentum - more 
visibility - and has enabled us to accelerate our programs in a way 
that allows us to work more quickly to solve some of these nuclear 
security problems.
    Additionally, we elevated the dialogue to a national level because 
we felt that would encourage Russian decision-makers to devote more of 
their own resources to nuclear security. As a result of our joint 
commitment to accelerate and expand cooperation, our material 
protection control and accounting upgrades in Russia are now scheduled 
to be complete by 2008. However, we cannot walk away and expect those 
systems will be maintained without financial support from the 
Government of Russia. It is important that the Russian Government - 
that is the President, the Presidential Administration and the Duma - 
appreciate the gravity of nuclear security issues and be willing to 
commit resources to those issues as a top priority.
    Finally, we all need to recognize that today's Russia is not the 
same Russia we encountered in the early days of the Nunn-Lugar 
initiatives. This is a new Russia with a stronger economy, stronger 
leadership, and a desire to play a larger role on the world stage. We 
recognize these changes and interact with Russia as a partner: a 
partner in the war against terrorism, a partner in nonproliferation and 
a partner in nuclear security.
    Our national security demands that we continue our engagement with 
Russia in the area of nuclear security and that we continue to support 
programs to eliminate excess fissile material, convert research 
reactors to LEU fuel, and assist in the security of nuclear material, 
even as we also acknowledge Russia's need to sustain its own security 
after we leave. Bratislava provides the opportunity to maintain our 
long-standing partnership with Russia at the same time that it provides 
a vehicle for encouraging Russian self-sustainability.

Emergency Response
    The emergency response component of the Bratislava Initiative 
envisioned cooperation in enhancing emergency-response capability to 
deal with a nuclear or radiological incident, including training and 
development of additional technical methods to detect nuclear and 
radioactive materials involved in the incident. To address this, a U.S. 
- Russian expert working group on emergency response was established to 
review current and future activities in the areas of incident response 
and consequence management.
    Under the Emergency Response Initiative, U.S. experts visited a 
Russian training and emergency management center in St. Petersburg. On 
October 18-19, 2005, Russian specialists observed a U.S. tabletop 
exercise in Nevada. These experts discussed approaches to responding to 
incidents such as the detonation of a radiological dispersion device, 
and cooperation on nuclear emergency response.
    Plans for next year include further discussions on nuclear incident 
response and consequence management methodologies, plans, and 
preparations for such incidents. The group plans to move on from the 
tabletop exercise to a field exercise in Russia with U.S. experts in 
late 2006. The scenario will focus on search and consequence management 
for a terrorist radiological event.
    Russia also seeks U.S. participation in training and research 
activities involving both the Rosatom Emergency Response Center in St. 
Petersburg, and the Ministry of Defense's Emergency Response Center. 
The first phase of this work will be completed next year.
    This initiative is truly an important partnership in the global war 
on terror. In addition to preventing and responding to nuclear and 
radiological incidents, both our nations need to be prepared to 
mitigate the consequences of any such event.
    It is important to note, in addition to work under the Bratislava 
Initiative, we have also made progress with Russia to develop technical 
methods to detect nuclear and radiological materials under the Warhead 
Safety and Security Exchange Agreement (WSSX). WSSX provides for 
unclassified technical exchanges in safety and security of nuclear 
warheads, technologies for potential future nonproliferation and arms 
control initiatives and technologies to combat nuclear related 
terrorism. Several underlying detection technologies can be applied for 
both nonproliferation and counter-terrorism objectives. The 
collaborative projects under WSSX can leverage the work in nuclear 
weapons detection (including nuclear materials and high explosives) to 
support advanced technology development to combat nuclear-related 
terrorism.

Best Practices
    In the Bratislava Joint Statement and corresponding "check list," 
the Interagency Working Group was charged with sharing "best practices" 
for the sake of improving nuclear security at facilities and to jointly 
initiate security "best practices" consultations with other countries.
    The idea behind this task was to have high-level nuclear security 
practitioners from both countries work together on common problems, and 
to discuss solutions and methodologies for addressing those problems. 
Prior to Bratislava, the majority of our bilateral nuclear work had 
taken place at the site level with local security managers. For this 
effort, we enlisted the help of those in our organization outside our 
Russian cooperative programs: those actually tasked with providing and 
overseeing nuclear security at our facilities across the United States. 
In May of last year, several high-ranking Russian officials came and 
observed the annual meeting of the U.S. Senior Security Managers of 
Hazardous Facilities.
    Additionally, a number of meetings were held at a high-level 
nuclear workshop that took place September 14-15, 2005, in Moscow. 
There were some 80 participants from both countries. From Russia, the 
participants included specialists from several Russian sites, the 
Ministry of Defense and Rosatom officials. The U.S. sent more than 20 
security specialists to discuss issues ranging from protective force 
training, to oversight procedures, to technology. The U.S. 
presentations were well received and initiated good discussions.
    The countries have agreed to continue collaborating in the area of 
Nuclear Security Best Practices and have begun a dialogue on the topics 
to be discussed at the next meeting that should take place this fall.
    As for third-country consultations, both countries are reviewing 
how best to accomplish this. We believe that it is essential for the 
United States and Russia to have a common understanding of what "best 
practices" we would jointly share with third countries. We are 
anticipating at least one more round of bilateral workshops before any 
kind of consensus could be reached in that area.

Security Culture
    In addition to proposing a workshop on "best practices," the Joint 
Statement also called for a workshop on Nuclear Security Culture. The 
statement calls for "fostering disciplined, well-trained, and 
responsible custodians and protective forces, and fully utilized and 
well-maintained security systems." The concept of "security culture" 
has been the topic of many international meetings, and the 
International Atomic Energy Agency is working to put together a paper 
on defining "security culture" and explaining the concept in depth. To 
fulfill this Bratislava mandate, the U.S. and Russia conducted a 
workshop in conjunction with the "best practices" workshop on September 
12-13, 2005.
    The workshop used experts from the Department's cadre of nuclear 
security experts. The group discussed the meaning of "security culture" 
and presentations were given on norms, regulations and documents that 
influence the formation of a security culture, education and training 
of personnel, and topics related to the "human factors" of nuclear 
security.
    After the workshop, both sides concluded that exploring the concept 
of "security culture" was a useful endeavor. We agreed to continue the 
dialogue under the auspices of the Joint Coordinating Committee, 
established under the 1999 Government-to-Government Agreement regarding 
Cooperation in the Area of Nuclear Material, Physical Protection, 
Control and Accounting (or the MPC&A Agreement), and that the progress 
would be reported back to the Senior Working Group. So far, the sides 
have agreed to a definition of Security Culture as "the assembly of 
characteristics, principles, attitudes, and behavior of individuals, 
organizations and institutions, which serves as a means to support and 
enhance nuclear security" and U.S. and Russian Co-chairs agreed to 
develop principles and evaluation criteria relating to Security Culture 
by the end of 2006.

Research Reactors
    We have worked with Russia in the area of research reactors for 
many years. As mentioned earlier, in order to accentuate and expedite 
the important work yet to be done in this area, the Department 
consolidated several programs under the Global Threat Reduction 
Initiative in 2004. In particular, we have two related programs with 
Russia that became part of the Bratislava Nuclear Security initiative: 
the Russian Research Reactor Fuel Return Program (RRRFR) and the 
Reduced Enrichment for Research and Test Reactors (RERTR) program. The 
RRRFR program is designed to repatriate Russian-origin fresh and spent 
nuclear fuel from research reactors located in third countries. The 
U.S. has an analogous program to repatriate fresh and spent US fuel 
from reactors in third countries. The RERTR program designs and 
develops LEU fuel for use in reactors originally designed for HEU fuel. 
The Bratislava initiative commits both sides to continue to work 
together to achieve the goals of HEU minimization and repatriation of 
fuel from third countries.
    So far, a good deal of progress has been made. The experts on both 
sides agreed on a prioritized schedule for all remaining Russian-origin 
fresh fuel shipments and agreed that they would be completed in 2006, 
and that spent fuel would be completed by 2010. In order to meet that 
schedule, a joint U.S. DOE-Rosatom technical working group will operate 
under the Joint Coordination Committee with the objective of 
accelerating and coordinating preparations for irradiated nuclear fuel 
shipments.
    We're making real progress: 2.4 kilograms of Russian-origin fuel 
from a research reactor in Salaspils, Latvia were repatriated in May 
2005, and 14 kilograms of Russian-origin HEU fresh fuel from the VR-1 
reactor at the Czech Technical University were repatriated in September 
2005. Another milestone was reached this year when the first shipment 
of Russian-origin HEU spent fuel from Uzbekistan was returned to 
Russia. And, in accordance with the schedule to return U.S.-origin 
spent fuel from U.S.-designed research reactors in third countries, 210 
U.S.-origin spent fuel assemblies from the Netherlands and 128 U.S.-
origin spent fuel assemblies from Sweden were returned to the United 
States in June 2005, and 46 U.S.-origin spent fuel assemblies from 
Greece and 22 U.S. origin spent fuel assemblies from Austria were 
returned to the U.S. in December 2005.
    As I have stated, experts from the United States and Russia are 
working on development of high density uranium fuels that will enable 
conversion of the remaining reactors that cannot convert with currently 
qualified LEU fuels. This work will continue using mechanisms to allow 
continued collaboration, such as contracts between U.S. National 
Laboratories and Russian institutes, information exchange through the 
International Group of Independent Experts on Fuel Development, and 
delivery of LEU replacement fuel to third countries.
Milestones in this program include:
    The first Russian-designed research reactor located in a third 
country and supplied with Russian-origin HEU fuel, the VR-1 reactor at 
the Czech Technical University, was successfully converted to low 
enriched fuel (LEU fuel) in October 2005. This is a significant 
achievement and will facilitate conversion of other Russian-designed 
research reactors in third countries to operate on LEU fuel.
    LEU fuel was delivered to the Tajura research reactor in Libya to 
replace repatriated HEU fuel and support reactor conversion in summer 
2006.
    Again, I would like to reiterate that while work in these areas has 
been proceeding for several years, Bratislava has encouraged us to set 
more aggressive schedules and achieve Russian commitment to this 
important work.

Nuclear Security
    As you may know, we have a longstanding record of cooperation in 
material protection control and accounting, or MPC&A, programs with the 
Russian Federation. We began these programs in collaboration with the 
Department of Defense in 1993 under the CTR program. It is a robust and 
broad program that addresses Russian civilian and military facilities 
containing both nuclear warheads and material with physical protection 
upgrades, material control and accounting upgrades, protective force 
equipment and training, and upgrades to nuclear transportation system. 
Additionally, the program has numerous national-level programs aimed at 
larger issues involved in nuclear security, such as developing laws and 
regulations, codifying standards for training and employment, 
developing a national-level accountancy system, as well as developing 
and training oversight bodies.
    This is a mature program. We are committed to finish the upgrades 
portion of our work at Rosatom's material sites on which we have 
agreement by 2008 under Bratislava.
    When the Presidents committed to Bratislava, we were able, for the 
first time, to establish a "master plan" for completing our security 
work with the Russian Federation. Working under the auspices of 
established agreements, Rosatom, the Russian Ministry of Defense, the 
U.S. Department of Energy and U.S. Department of Defense developed a 
Joint Action Plan that outlines the agreed-upon scope of work on 
upgrades to the security systems at nuclear sites in Russia (as well as 
for transportation of nuclear warheads slated for disposals). The 
detailed portions of this plan identify new buildings and the status of 
on-going cooperation for specific buildings at specific cooperation 
sites. The plan also includes cooperation in the areas of nuclear 
regulatory development, sustainability, secure transport, material 
protection, control and accounting expertise training, protective force 
equipment and other such crosscutting issues. The Joint Action Plan for 
Rosatom and the Russian Ministry of Defense sites includes evaluations 
of joint projects, specific implementation timeframes, and detailed 
milestones. These plans will be augmented with detailed schedules as 
Rosatom and the Russian Ministry of Defense nominate new areas for 
cooperative work.
    Because of the sensitive nature of the information that the U.S. 
side receives during the course of performing upgrades at Rosatom 
sites, U.S. and Russian experts signed a Memorandum on Procedures for 
the Exchange of Sensitive Information between Rosatom and the U.S. 
Department of Energy's (NNSA) Office of International Material 
Protection and Cooperation in August of 2004.
    As I mentioned, we are in the process of completing some of the 
upgrades work at Rosatom sites and commissioned two sites last August, 
the Scientific Research Institute of Atomic Reactors (NIIAR) in 
Dimitrovgrad and the Research Institute of Scientific Instruments 
(NIIP) in Lytkarino. And by fall of 2006, upgrades will be completed at 
the Bochvar All-Russian Scientific Research Institute of Inorganic 
Materials (VNIINM) and the Institute of Physics and Power Engineering 
(IPPE).
    Working with the Ministry of Defense, we have enjoyed a good 
relationship. We have completed significant work with the Russian Navy. 
In the past few years we have also worked to secure some Strategic 
Rocket Force sites. Perhaps the most significant breakthrough resulting 
from Bratislava was that the Russian Ministry of Defense, the 12th Main 
Directorate, offered to the U.S. Departments of Energy and Defense, a 
list of sites for cooperative security upgrades. The sites in question 
are large nuclear warhead storage sites. The U.S. has reviewed those 
proposed sites and has agreed to upgrade security at fifteen of the 
newly proposed sites. The Department of Defense, the Department of 
Energy and the Ministry of Defense are all working together to 
determine what other assistance the U.S. can provide.
    In the sphere of nuclear security, both Presidents also committed 
in the Joint Statement to work together to amend the Convention on the 
Physical Protection of Nuclear Material (CPPNM). I am pleased to report 
that through the efforts of the U.S., the Russian Federation and other 
States Parties, the CPPNM was amended last July. This amendment is a 
significant step forward for international nuclear security. It expands 
the scope of the Convention to cover not only nuclear material used for 
peaceful purposes in domestic use, transport and storage, but also 
nuclear facilities used for peaceful purposes. This amendment also 
includes new counter-terrorism provisions requiring each State Party 
bound by the amendment to make sabotage of a nuclear facility used for 
peaceful purposes, or threats to do so in order to compel a person or 
State to do or refrain from doing any act, a punishable offence under 
its national law. We will continue to work closely with Russia and 
other key partners to ensure its timely ratification, and to revise 
international physical protection guidance to address these new 
obligations.
    We will also continue to work with Russia in the Nuclear Suppliers 
Group to strengthen controls on especially dangerous nuclear 
technologies. As proposed by President Bush in 2004, we seek broad 
restrictions on transfers of enrichment or reprocessing technologies - 
the very technologies sought by Iran and DPRK to pursue nuclear weapons 
programs.

Conclusion
    The Bratislava Nuclear Security initiative allows us to expand and 
accelerate the work we have been doing in the area of nuclear security, 
explore some new avenues of cooperation, and begin a new era in our 
relationship with the Russian Federation. Bringing the issue of nuclear 
security to the attention of the highest levels of both the U.S. and 
Russian governments provides an immeasurable increase in focus to our 
own security.
    Just this past month, members of my staff and our colleagues in 
other parts of the U.S. Government met with our Russian counterparts 
here in Washington to discuss next steps in cooperation. Secretary 
Bodman was briefed on our activities by the entire delegation and is 
fully engaged. Prior to the working meeting, Secretary Bodman and 
Director Kiriyenko (Rosatom) spent a considerable amount of time 
together discussing a number of topics, most of which highlight 
Bratislava.
    We are moving toward the time when Russia assumes full 
responsibility for protecting its own warheads and material, for 
reducing the quantity of fissile material and the numbers of sites at 
which it is located, and invests in measures to prevent, respond to and 
mitigate nuclear or radiological incidents. This is a necessary 
condition of both countries' security. Thus far, progress under the 
Bratislava initiative indicates that Russia is willing to take on that 
challenge, and we are proud of our success in helping Russia prepare to 
do so. Of course, we recognize there is much work still to be done.
    Again, Mr. Chairman, I thank you for the opportunity to highlight 
this important Initiative. I look forward to answering your questions.

    Mr. Linder. Mr. Record.

          STATEMENT OF FRANK RECORD, ACTING ASSISTANT 
 SECRETARY, INTERNATIONAL SECURITY AND NONPROFLIFERATION, U.S. 
                      DEPARTMENT OF STATE

    Mr. Record. Mr. Chairman, Ranking Member Langevin, and 
other distinguished members of the committee, I thank you for 
the opportunity to discuss the Department of State's ongoing 
efforts to reduce the nuclear and biological threat at the 
source.
    Recently, I spoke to you about our initiatives to deter, 
interdict and prevent acquisition of nuclear and radiological 
material. Today's hearing I think points at the fact that one 
of the best investments we can make overall as a nation is to 
reduce the nuclear and biological threat, to keep terrorists 
and states seeking WMD capabilities from ever acquiring those 
WMD and WMD-related materials, technologies and expertise in 
the first place.
    Meeting this challenge requires a targeted U.S. government 
effort; and in my detailed written statement before you, you 
will see outlined the important role played by the State 
Department through programs designed to deny terrorists and 
states from acquiring WMD nuclear and biological materials, 
technologies and expertise.
    Broadly, our efforts involve programs that address three 
targeted nuclear and biological elements of this source. They 
include facilities and equipment that can produce or store WMD, 
poorly housed WMD or WMD-related materials, and people with WMD 
expertise.
    The State Department implements programs and diplomatic 
initiatives to address all of these sources, but based on 
limited time, I would like to focus on just four at the moment. 
They include global programs to combat proliferation of WMD 
expertise, programs to engage and reconfigure former biological 
weapons production facilities, capacity to rapidly respond to 
secure or destroy WMD sources, and a newly launched State 
Department program to increase security for facilities housing 
dangerous pathogens outside of the former Soviet Union.
    As part of the State's Cooperative Threat Reduction 
efforts, we implement the Nonproliferation of Weapons of Mass 
Destruction Expertise program, NWMDE. Through this program, we 
seek to impede the proliferation of WMD expertise to terrorists 
and states of concern.
    Included within the program are three specific initiatives 
in the countries of the former Soviet Union, two which were 
created specifically to address biological threats.
    They include the Science Centers Program, supporting 
financial self-reliance for former Soviet WMD personnel through 
two centers, the International Science and Technology Center in 
Moscow and the Science and Technology Center in Kiev in the 
Ukraine.
    Second, the Bio-Chem Redirect Program, which engages former 
Soviet biological and chemical weapons personnel in 
collaborative research with U.S. experts from HHS and USDA.
    And finally, third, the Bio Industry Initiative, BII, which 
was launched after September 11th and the Anthrax attacks of 
2001 and focuses exclusively on the biological threat.
    For a minute then I want to focus on the BII Initiative. It 
is the only U.S. program dedicated to transforming former 
Soviet large-scale biological production facilities for 
peaceful commercial use. Through this program, we also 
facilitate collaborations between global public health experts 
and industry to redirect former weapons personnel to 
sustainable, peaceful commercial work, including accelerating 
drug and vaccine development for global infectious diseases and 
increasing surveillance for diseases like Avian Influenza.
    And, Mr. Chairman, as you noted in your remarks, a BII-
funded U.S.-Russia collaboration led to the discovery of a 
highly pathogenic avian flu in birds in Siberia in 2005. And I 
would note our 2007 funding will allow us to build a Russian 
avian flu surveillance network as well as to reconfigure the 
production plans in the former Soviet Union.
    Our authority to engage and redirect former weapons experts 
is now global, and since 2003 we have expanded our programs to 
include targeted initiatives to engage former WMD scientists in 
Iraq and Libya. Our engagement efforts in Iraq and Libya are 
critical components of our work to reduce threats in the 
region, and we plan to continue to ensure integration of former 
WMD personnel in Iraq and Libya into the international peaceful 
community.
    I would also like to mention a word or two about the unique 
capabilities we have to rapidly respond to proliferation 
threats of this source through our Nonproliferation and 
Disarmament Fund, the NDF. The NDF reduces the WMD and WMD-
terrorist threat by detecting, interdicting, destroying or 
securing existing weapons and related materials. NDF projects 
are designed to address unanticipated opportunities to reduce 
proliferation threats, including threats of this source, but it 
is an extremely important part of our nonproliferation toolbox, 
and I would be glad to give you more details.
    Also, I would like to mention briefly a newly launched 
program at State, our Biosecurity Engagement Program. I want to 
emphasize in this context the immense challenge posed 
specifically by the biological threat and note that dual-use 
biological materials, technologies and expertise that could be 
used to enhance WMD capabilities are widespread and readily 
available.
    Dangerous pathogens exist not only in freezers in the labs 
of the former Soviet Union but are naturally occurring in many 
parts of the world. Therefore, engaging in global activities to 
promote biological security not only involves securing 
repositories but involves programs to train laboratory and 
public health workers in appropriate practices for handling and 
transporting these dangerous pathogens.
    The State Department's Biosecurity Engagement Program will 
address this important aspect of the threat at the source by 
engaging these biological facilities and infectious disease 
personnel in activities to promote biosecurity. The program 
will also focus on working with countries where terrorists are 
known to operate and which maintain growing biotechnology 
sectors and unsecured dangerous pathogen collections.
    In conclusion, Mr. Chairman, through my remarks, my written 
statement and my previous testimony, I think I have outlined in 
a comprehensive way our efforts to address the threat posed by 
terrorists and states seeking nuclear and biological WMD 
capability. Our efforts to meet this challenge require that we 
look for opportunities to develop new partnerships, both public 
and private, and that we extend the efforts across the globe to 
defend against a threat.
    Looking to the future, we will continue to combine 
diplomacy with strongly created programs to build support for 
these international nuclear and biological security efforts.
    Thank you very much.
    Mr. Linder. Thank you, Mr. Record.
    [The statement of Mr. Record follows:]

                Prepared Statement of Francis C. Record

Opening Remarks
    Mr. Chairman, Ranking Member Langevin, and other distinguished 
members of the committee, I would like to thank you for the opportunity 
to discuss the Administration's accomplishments and ongoing efforts to 
reduce the nuclear and biological threat at the source. The 
proliferation of weapons of mass destruction is one of the United 
States' most urgent national security challenges, and meeting this 
challenge requires targeted efforts to ensure that materials, 
technologies and expertise that can be used to obtain or further WMD 
capabilities do not fall into the hands of terrorists or rogue States 
seeking WMD.
    Recently, I spoke to you about our initiatives to deter, interdict 
and prevent acquisition of nuclear and radiological material through 
export controls and border assistance, the Proliferation Security 
Initiative, and our efforts to combat nuclear smuggling. These 
initiatives are largely designed to interdict WMD material after it has 
been procured. Today, I would like to speak more specifically about 
U.S. Department of State (DOS) efforts to address the nuclear and 
biological threat through programs and diplomatic initiatives designed 
to deny terrorists and states from acquiring WMD capability-enhancing 
nuclear and biological materials, technologies, and expertise at their 
source. These include DOS programs and diplomatic efforts designed to 
address the threat of nuclear and biological terrorism at the source, 
including efforts to sustainably employ former weapons personnel, 
right-size and reconfigure former WMD facilities, secure nuclear and 
biological material and eliminate excess weapon materials, improve 
U.S.-Russia bilateral cooperation, and vigorously support relevant 
multilateral mechanisms that seek to secure material at the source such 
as the International Atomic Energy Agency (IAEA) Additional Protocol, 
and G-8 Global Partnership activities.
    Although much of the critical work I will speak about today focuses 
on Eurasia, where the Soviet legacy has left behind a vast architecture 
of poorly secured nuclear and biological facilities and a large cadre 
of unemployed weapons experts, DOS is focusing enormous effort to work 
globally as we address potential sources of WMD materials, technologies 
and expertise where they are housed, including those countries and 
regions where terrorists are active and could more easily procure them.
    I will begin with DOS programs to engage and redirect former 
weapons experts, secure dangerous pathogens, and destroy WMD 
infrastructure, emphasizing areas where our work fills gaps and 
complements that of other USG agencies, primarily DOE and DoD. I will 
then address the critical diplomatic multilateral and bilateral efforts 
led by DOS to enhance success for USG programs designed to reduce 
threat at the source.
    I would also like to make you aware of the immense challenge posed 
by the biological threat, and to compare our efforts to secure 
dangerous biological material and prevent proliferation of biological 
expertise with our efforts to do the same in the nuclear arena. Dual-
use biological materials, technologies and expertise that could be used 
to enhance WMD capabilities are widespread and readily available. 
Dangerous pathogens exist not only in freezers in labs of the former 
Soviet Union but are naturally occurring in most parts of the world. 
Therefore, engaging in biological security activities not only involves 
traditional efforts to secure repositories, but also involves a broader 
effort to train laboratory and public health workers in appropriate 
practices for handling, storing, and transporting dangerous pathogens 
and should bring together the public health and law enforcement 
communities. The USG has placed an emphasis on combating this threat at 
the source through programs to secure dangerous pathogens and employ 
weapons experts in former Soviet countries, where pathogens were 
weaponized and expertise abounds.
    This remains a critically important task, however, we are also now 
addressing the global threat posed by the expansion of dangerous 
pathogen collections and high containment facilities to work with them, 
particularly in regions of the world where terrorists are active.

Cooperative Threat Reduction
    The former Soviet states are still littered with reminders of the 
massive architecture of the former Soviet WMD program, including a 
large number of facilities that could serve as potential sources for 
terrorists and states seeking WMD. Since the inauguration of the 
Cooperative Threat Reduction program in 1992,--or as it is often 
referred to the Nunn-Lugar program--the U.S. has worked with the 
Russian Federation and other former Soviet states to eliminate WMD 
threats posed by the legacy of the Cold War. The U.S. has invested in 
efforts to reduce the proliferation threat posed by acquisition of 
materials and know-how from the vast source of poorly secured nuclear 
and biological materials and underemployed former WMD personnel in the 
former Soviet Union. Funding for these programs from FY1992 through 
today has totaled more than $10 billion.
    The Department of State leads diplomatic and negotiating efforts 
necessary to conduct these programs and to provide the robust legal 
frameworks for their continuation, and we also implement specific 
programs, which complement and work hand-in-glove with Department of 
Defense (DoD) and Department of Energy (DOE) Cooperative Threat 
Reduction activities. On June 16, 2006, the United States and the 
Russia Federation signed a new protocol extending the CTR umbrella 
agreement for another 7 years, and the two countries are also now 
finalizing a protocol for the plutonium disposition agreement that will 
resolve the long-standing issue on liability protections. The 
formulations in the liability protocol are also expected to facilitate 
a number of other nonproliferation and cooperative programs. DOS 
cooperative threat reduction programs initially focused on Eurasia, but 
are now addressing the worldwide threat.

Nonproliferation of WMD Expertise (NWMDE)
    To effectively develop WMD capability, terrorists and States 
seeking WMD must first have access to know-how and expertise. 
Therefore, it is critical that the USG engage WMD personnel in States 
with WMD programs and deter them from sharing that expertise or using 
it to promote proliferation. The Nonproliferation of Weapons of Mass 
Destruction Expertise (NWMDE) program is specifically designed to 
prevent the proliferation of WMD expertise to terrorists and states of 
concern, addressing a key objective of the National Strategy to Combat 
Weapons of Mass Destruction and the U.S. National Security Strategy. 
This program has redirected $52.074 million in FY 2006, and we 
requested $56.2 million for FY 2007. Since its inception, the program 
has engaged more than 60,000 former weapons experts.
    Included under NWMDE are three specific programs focused in the 
countries of the former Soviet Union, two of which were created by the 
Congress to specifically address the biological threat. These efforts 
aim to combat the nuclear and biological threat at the source while 
also providing critical diplomatic support and policy guidance for DOE 
and DoD efforts.

    The three DOS NWMDE programs operating in Eurasia are the Science 
Centers Program, Bio-Chem Redirect Program, and BioIndustry Initiative. 
While the core Science Centers program provides funding for the 
International Science and Technology Center (ISTC) based in Moscow and 
the Science and Technology Center in Ukraine (STCU) and engages 
nuclear, chemical, biological and missile scientists, the other DOS 
redirection programs are more narrowly focused to address the 
biological and chemical proliferation threats.

Science Centers Program
    The Science Centers Program supports financial self-reliance for 
former Soviet WMD personnel through two centers - the ISTC in Moscow 
and the STCU in Kiev. In addition to funding collaborative research, 
the Program now also provides critical training for scientists to 
compete in the global research and development community in competitive 
grant writing, intellectual property protections, matchmaking with U.S. 
collaborators, and meeting international standards in areas such as 
Good Laboratory and Manufacturing Practice. The current focus area for 
this program provides avenues to reduce the proliferation threat over 
the long-term by enhancing self-sustainability for former weapons 
personnel and institutes. This includes increasing U.S. private 
industry participation and attracting recipient-country agencies and 
industry to invest their R&D funds in Science Center-managed research 
in their countries. DOS provides policy guidance and oversight for ISTC 
and STCU, through which most redirection assistance in Russia and the 
FSU is funded, and DOS also coordinates policy guidance and strategy 
for engagement, particularly with respect to biological and chemical 
engagement activities. DOS chairs an NSC-mandated interagency 
roundtable, which brings together DoD, DOE and other agencies funding 
biological and chemical redirection activities in the former Soviet 
Union to discuss program activities and provide policy guidance.

Bio-Chem Redirect Program
    The U.S. Bio-Chem Redirect Program (BCR) has allocated more than 
$80 million since 1997 to engage scientists, engineers and technicians 
of the former Soviet Union with biological or chemical weapons 
expertise in collaborative research with U.S. experts from the U.S. 
Department of Health and Human Services (HHS), U.S. Department of 
Agriculture (USDA), and Environmental Protection Agency (EPA), 
including funding for disease surveillance initiatives and drug and 
vaccine research and development in global public health priority areas 
(Influenza, HIV/AIDS, Tuberculosis, Hepatitis, etc.). BCR also supports 
key components in U.S. global efforts to combat biological and chemical 
terrorism through research on countermeasures, early detection & 
response, antidotes, decontamination, and other critical areas. The 
current focus of this program is to prepare former Soviet biological 
and chemical weapons personnel for self-sustainability and eventual 
independence from USG support through capacity building; expanding 
engagement in Ukraine, Central Asia, and the Caucasus; and continuing 
to expand engagement of former Soviet CW personnel, some of whom 
receive little or no salary. Through BCR, DOS is also working to reduce 
the biological threat in countries not yet engaged by the DoD 
Biological Threat Reduction program, including regional priorities such 
as Tajikistan and Kyrgyzstan. BCR is also building on DoD's critical 
effort that has destroyed the biological weapons (BW) infrastructure at 
Stepnogorsk, through redirection of former Stepnogorsk weapons 
personnel, including development of sustainable employment options.

BioIndustry Initiative
    The U.S. BioIndustry Initiative (BII) is another DOS program 
created specifically to address the biological threat at the source. 
BII is a unique program, through which DOS addresses the biological 
threat at its source in two major ways: first by redirecting weapons 
experts and reconfiguring former WMD facilities for peaceful purposes 
and second by engaging WMD personnel in work to accelerate drug and 
vaccine development to combat bioterrorism and other critical global 
public health threats, including avian influenza. It is important to 
note that BII is the only U.S. program dedicated to the targeted 
transformation of former Soviet large-scale biological production 
facilities for peaceful commercial use. Through BII, for the very first 
time, we are now able to address the threat posed by huge biological 
weapons production facilities, which could be a source for equipment, 
expertise, and materials necessary to make tons of weaponized disease 
agents. Many former BW production and research and development 
facilities throughout Russia and the FSU are now being reconfigured for 
peaceful use, and BII has forged collaborative partnerships with 
industry partnerships to aid in this effort.
    In its efforts to reconfigure former biological production 
facilities, BII also works closely with State Nonproliferation and 
Disarmament Fund (NDF) and DoD to eliminate WMD infrastructure. In a 
striking example of how DOS is reducing the biological threat at the 
source, BII has worked to reconfigure critical biological production 
facilities and redirect their personnel, including the Berdsk Biologics 
Facility, which is the largest dual-use biological production facility 
in Russia. Through these efforts we will now enable removal and 
destruction of BW capacity at Berdsk and will facilitate 
reconfiguration to support peaceful employment for WMD experts there. 
BII is also providing for reconfiguration and redirection of personnel 
at additional biological production facilities in Russia and at 
production facilities in Georgia and Kazakhstan, including those where 
DoD has engaged in enhancing biosecurity and destroying WMD 
infrastructure.
    BII is designed to provide former WMD experts with sustainable 
employment, and BII focuses resources on providing training to bring 
scientists and facilities up to international standards. This has 
included success in aiding facilities to meet international standards 
for Good Laboratory Practice (GLP), Good Manufacturing Practice (GMP) 
and Association for Assessment and Accreditation of Laboratory Animal 
Care (AAALAC) standards. BII has forged critical partnerships with 
international accreditation and standards groups, including AAALAC, the 
Regulatory Affairs Professional Society (RAPS) and others, and BII also 
targets significant resources toward intellectual property protection 
and training to further ensure sustainability for engaged scientists.

NWMDE-Eurasia Program Efficacy
    The importance and efficacy of these three Eurasian NWMDE 
initiatives is evidenced by the sobering results of a 2003 survey of 
Russian scientists with weapons expertise, which revealed that 20 
percent of the respondents would consider working in rogue states 
(including North Korea, Syria, and Iran). However, the study also 
revealed that participation in western grant programs, such as the 
ISTC, reduced the likelihood that surveyed participants would consider 
working for such states.
Engagement of WMD expertise in Iraq and Libya
    Since 2003, we have expanded our NWMDE program to include WMD 
scientists from Iraq and Libya. In FY 2004, we developed a targeted 
program to redirect former Iraqi WMD scientists. Despite serious 
security constraints, we have made progress in funding approximately 
200 key former WMD personnel in Iraq, and have worked closely with the 
UK in these efforts.
    In conjunction with its decision to dismantle its WMD programs in 
2004, Libya explicitly requested Western assistance to engage its 
former weapons scientists and identified four priority areas for 
engagement activities: nuclear medicine, water management, precision 
manufacturing, and environmental monitoring. These two efforts are 
critical components of our work to reduce threat in the region, and we 
plan to continue to ensure integration of former WMD personnel in Iraq 
and Libya into the international peaceful scientific community.

DOS Efforts to Increase Pathogen Security
    In addition to our efforts to engage former WMD personnel, the U.S. 
is also leading global efforts to combat the threat posed by potential 
terrorist acquisition of dangerous biological materials from poorly-
secured laboratories that possess biological agents for legitimate 
public health and research activities. In addition to the work 
described in states of the former Soviet Union, the U.S. is working 
within the international community to raise awareness of the risks, to 
establish global standards, to assist in developing national 
legislation and regulations, and to assist individual facilities with 
upgrading security practices.
    At the initiative of the U.S., the Parties to the Biological 
Weapons Convention focused on this issue in 2004, highlighting national 
responsibilities under the Convention and United Nations (UN) Security 
Council Resolution 1540 for ensuring that pathogens are secured. For 
its part, DOS is funding a project at the World Health Organization to 
develop pathogen security guidelines with global applicability. We are 
also a key player in work on pathogen security guidelines that is 
underway at the Organization for Economic Cooperation and Development. 
Once these guidelines are ready, our intention is to urge states, 
relevant international organizations, and professional scientific 
groups to adopt them as the norm. In addition, we are working with the 
International Criminal Police Organization, INTERPOL, - and with 
individual nations - to ensure that countries have necessary 
legislation to prevent and punish biological weapons-related activity, 
including efforts by non-State actors to obtain dangerous pathogens.
    Important as global standards are, we are not waiting until 
standards are available before we begin working with states to 
strengthen pathogen security on a national level and at individual 
facilities. We are already working with several countries in Asia to 
raise awareness, to establish national regulations, and to upgrade 
pathogen security at individual high-priority facilities.
    To intensify these efforts, DOS is launching a new program to 
engage biological facilities and infectious disease personnel in 
regions where terrorists are known to operate. This program is called 
the Biosecurity Engagement Program and is designed to engage countries 
that maintain rapidly growing biotechnology sectors and unsecured 
dangerous pathogen collections. Through this program, we seek to work 
with countries and specific facilities to improve biosecurity and 
biosafety conditions and to improve accounting for dangerous pathogens 
to combat the insider threat.

Rapid Response to Reduce the WMD Threat at the Source
Nonproliferation and Disarmament Fund (NDF)
    As a key complement to DOS, DoD and DOE efforts to reduce the 
biological and nuclear threat at the source through rapid response to 
critical needs to destroy WMD and WMD infrastructure worldwide, the 
Nonproliferation and Disarmament Fund (NDF) is able to address 
critical, immediate opportunities to reduce the WMD threat at the 
source.
    The NDF reduces the WMD and WMD-terrorist threat by detecting, 
interdicting, destroying or securing existing weapons, related 
materials and associated infrastructure. Congress has provided the NDF 
with a clear mandate to develop and execute projects to stop the 
proliferation of WMD, missiles and advanced conventional weapons. To 
execute this mandate, NDF maintains readiness for rapid, agile and 
flexible responses to a wide variety of situations and conditions--from 
removing WMD and associated infrastructure in Libya, right-sizing 
biological weapons facilities in Russia, removing fissile material in 
Kazakhstan, and destroying SA-3 surface-to-air missiles in Southeast 
Asia.
    NDF proposals span the globe, and the NDF is designed to allow for 
rapid responses to a wide variety of situations. Many of its projects 
are developed to take advantage of unanticipated opportunities or 
circumstances that might arise. For this reason, NDF resources are not 
committed to any project or region in advance. NDF plays an important 
and growing role in the war on terror, and has funded efforts to 
destroy fermentors that could be used to make large amounts of 
pathogens for biological weapons, as well as non-WMD programs for the 
elimination of MANPADS, and the destruction of heavy munitions that 
could be used to make Improvised Explosive Devices (IEDs).
    In some instances, NDF may provide resources to others agencies or 
offices it deems best suited to carry out the activity (e.g. MANPADS 
elimination). In other cases, the technical complexity of many projects 
requires the project management experience of NDF staff. In cases where 
an international agreement, MOU or implementing agreement is required, 
NDF must first negotiate agreement from foreign governments to support 
the activity. NDF staff then implements the project, putting contracts 
in place, personnel on the ground, and equipment on location to 
accomplish the project goals within the budget approved.

Combating the Nuclear Threat at the Source through Efforts to Combat 
Nuclear Smuggling
    In addition to our efforts to secure nuclear and biological 
material, technology and expertise or destroy WMD infrastructure, DOS 
also coordinates the U.S. response to nuclear smuggling incidents, a 
responsibility that can lead to identification of and further security 
for unsecured nuclear or radiological sources. Since 9/11 we have 
strengthened this effort not only to ensure that smuggling attempts are 
thwarted and that smugglers are arrested and prosecuted, but also to 
make certain that the fissile or radioactive material involved is 
secured and source attribution is obtained when possible. Attribution 
through nuclear forensics can help us understand how and where 
illicitly trafficked material is diverted from and how we can secure 
those at-risk facilities. In this effort we work very closely with 
other agencies in the law enforcement and intelligence communities.
    DOS also coordinates interagency efforts to address the threat of 
nuclear materials smuggling at the source through a Nuclear Smuggling 
Outreach Initiative. This initiative includes activities aimed at 
identifying and addressing shortcomings and gaps of at-risk states, 
including gaps in physical security and regulatory capability to 
enhance the security of nuclear materials that may not be covered by 
USG programs. Under this initiative, an interagency team assesses the 
needs of states identified as high risk. Then DOS engages with foreign 
officials to determine specific gaps and works with the state and other 
international partners to help fulfill identified needs.

DOS Diplomatic Initiatives Aimed at Improving International Efforts to 
Reduce the Nuclear and Biological Threat at the Source
    In parallel to the programmatic efforts implemented by DOS and by 
our partners at DoD, DOE and elsewhere in the USG, DOS also focuses 
several key bilateral and multilateral initiatives on reducing the 
nuclear and biological threat at the source.
    The Department's diplomatic efforts to combat the WMD threat at the 
source extend to strengthening appropriate multilateral frameworks and 
international regimes to enforce the global obligation to ensure that 
materials, technologies, and expertise are not procured by terrorists 
or states seeking them. Stemming the proliferation of WMD requires a 
global effort, and we have actively sought to: support G-8 initiatives 
aimed at increasing international efforts to combat the WMD threat at 
the source, bolster the IAEA, involve and obligate more states to 
improve nuclear and biological security, combat nuclear and biological 
terrorism, and increase international financing of nonproliferation 
assistance programs designed to employ weapons experts and secure WMD 
materials.

G-8 Global Partnership
    The Department has led efforts for increased participation by other 
governments to meet nonproliferation and threat reduction program needs 
worldwide, since success is critical not only to U.S. security, but to 
international security. Under the G-8 Global Partnership launched in 
2002, G-8 leaders pledged to raise $20 billion over ten years to 
prevent terrorists from acquiring WMD, with an initial focus on Russia. 
The President pledged $10 billion for assistance principally in Russia 
and Eurasia over ten years, and asked other G-7 leaders to match the 
U.S. contribution. So far the G-7, European Commission and thirteen 
other donor countries that have joined the Partnership have pledged 
about $7 billion for programs in Russia and Ukraine, and the Russian 
Federation has pledged about $2 billion of its own funds.
    Among our Global Partnership priorities are efforts specifically 
focused on reducing the nuclear and biological threats at the source, 
including construction of 17 facilities for dismantling nuclear 
submarines to secure the safe storage of reactor compartments, the safe 
disposition of excess weapons plutonium and other fissile materials, 
chemical weapons destruction, and enhancing the physical protection of 
active facilities with nuclear materials. We have also placed a strong 
emphasis on biological threat reduction activities through the Global 
Partnership and, in conjunction with Canada, the UK and other G-8 
nations, the U.S. supports funding for Global Partnership initiatives 
to increase biological security and improve infectious disease 
surveillance. We continue to work with our partners to ensure that our 
pledges are turned into concrete results and that the Partnership meets 
its ambitious goals of securing weapons and materials and reducing 
weapons stockpiles.

G-8 Bioterrorism Experts Group (BTEX)
    To emphasize the importance of multilateral and multisectoral 
cooperation to combat the threat of bioterrorism, the U.S. established 
and hosted the initial meeting of the G-8 Bioterrorism Experts Group 
(BTEX) under the U.S. G-8 Presidency in 2004. BTEX is an international 
exchange involving foreign policy, homeland security, agriculture, 
health, and defense experts and was designed to strengthen G-8 actions 
to prevent and respond to bioterrorism, including diplomatic 
initiatives to strengthen global expert-to-expert contacts across all 
of the sectors of the G-8 governments responsible for responding to the 
bioterrorism threat.
    As a result of the G-8 BTEX work initiated in 2004 and the workplan 
developed in 2005, G-8 nations are continuing and expanding work to: 
identify gaps and best practices in protecting the food supply from 
deliberate contamination; strengthen national and international 
biosurveillance capabilities; share national emergency response plans; 
and share methodologies for training of law enforcement and public 
health experts in forensic epidemiology. G-8 nations have also shared 
reviews of national legal and licensing issues that could affect the 
possible international sharing of medical countermeasures (vaccines, 
drugs) and have begun to identify emergency preparedness and response 
events which G-8 observers can attend.
    All of these initiatives represent important, productive steps 
towards harmonizing and coordinating G-8 and broader international 
efforts to defend against bioterrorism.

Materials, Protection, Control & Accounting (MPC&A) Program
    Outside the G-8 context, DOS is also engaged in other wide-ranging 
bilateral and multilateral diplomatic initiatives, which aim to control 
the nuclear and biological threat at the source. Particularly critical 
are diplomatic efforts that support the ability of the USG to provide 
upgrades and improvements to the physical protection of nuclear weapons 
and materials in Russia through DOE's Materials, Protection, Control & 
Accounting (MPC&A) Program. This program provides physical security and 
accounting procedures to reduce the threat of theft of nuclear material 
at facilities where it is housed. Cooperation is a key component for 
the continued success of such USG nonproliferation programs, and our 
MPC&A efforts were challenged by a lack of access to some sensitive 
Russian sites. However, in recent years progress has been made in the 
area of access, with only a couple of highly sensitive sites remaining 
at which the U.S. government has not been able to work. We continue to 
work with our Russian colleagues to secure greater access to facilities 
and materials where nuclear warheads and nuclear material are 
vulnerable to potential nuclear terrorism.
    In fact, I am pleased to report that we made significant progress 
with Russia, including agreement at Bratislava last year, to develop a 
plan of work through 2008 for cooperation on security upgrades of 
nuclear facilities and for transportation of nuclear warheads slated 
for disposal. The detailed portions of this plan identify specific 
buildings for cooperation and upgrades, and will also be adjusted as 
the Russian Ministry of Defense (MOD) nominates additional sites for 
cooperative activities. The Departments of Defense and Energy have 
already begun work to upgrade these sites.
    In addition, the Bratislava meeting yielded two important 
developments in our efforts to secure high-enriched uranium (HEU) from 
U.S. and Russian-designed research reactors in third countries: a plan 
to jointly develop low-enriched uranium (LEU) fuel for use in these 
research reactors instead of HEU and a prioritized timeline to return 
all U.S. and Russian-origin fresh and spent fuel. The agreed timeline 
calls for all remaining Russian-origin fresh fuel shipments to be 
completed by 2006 and spent HEU fuel shipments to be completed by 2010.

U.S. Support for IAEA and IAEA Additional Protocol
    The U.S. is also strongly supporting multilateral initiatives to 
decrease the threat posed by sources of nuclear and biological 
materials, technologies and expertise worldwide.DOS's budget includes 
financial support to the IAEA. Since September 11, 2001, the USG has 
contributed over $25 million to assist states in bolstering their 
nuclear and radiological security capabilities for civilian facilities 
and activities.
    Through our support for the IAEA, the U.S. works toward ensuring 
that States are held accountable for their use to prevent proliferation 
of nuclear weapons material and technology. To that end, we are 
supporting universal acceptance of the IAEA Additional Protocol. The 
Additional Protocol plays an important role in reducing the risk of 
nuclear proliferation, and promotes our goal of verifying other states' 
compliance with their nonproliferation obligations. The greater 
verification role of the IAEA provided by the Additional Protocol will 
facilitate detection of undeclared nuclear activity at an earlier 
stage. Our global nonproliferation efforts are much more effective when 
undeclared nuclear activity and nuclear weapons programs are thwarted 
in their infancy.

Convention on the Physical Protection of Nuclear Material (CPPNM)
    While greater oversight by the IAEA contributes to our nuclear 
nonproliferation efforts to ensure that State sources of nuclear 
materials, technology and expertise do not pursue clandestine nuclear 
WMD programs, it is also critical that individual states share 
responsibility for combating nuclear terrorism by securing their 
nuclear materials at the source. Accordingly, the Department has sought 
the broadest possible participation in international agreements that 
obligate States to be proactive against proliferation and nuclear 
terrorism. These agreements and commitments strengthen nuclear security 
worldwide and spread the cost of improving physical nuclear security 
among many states, all of whom benefit from these efforts.
    To that end, the U.S. strongly supports recent progress under the 
1979 Convention on the Physical Protection of Nuclear Material (CPPNM). 
On July 8, 2005, in a culmination of eight years of USG efforts, a 
diplomatic conference of more than eighty-five States Parties to the 
CPPNM, meeting at the IAEA in Vienna, adopted by consensus an Amendment 
that significantly broadens the scope of the original Convention. The 
Convention was of limited scope, with physical protection obligations 
covering only nuclear material used for peaceful purposes while in 
international transport and storage incidental to such transport. The 
Amendment to the Convention will provide a treaty-based anchor for an 
international regime for the physical protection worldwide of nuclear 
material and nuclear facilities used for peaceful purposes.

Reducing Nuclear Threat at the Source through the Nuclear Terrorism 
Convention
    Concurrent with our efforts to amend the CPPNM, we have made other 
diplomatic strides to further combat the threat of nuclear terrorism by 
providing a framework for preventing terrorists from gaining access to 
nuclear weapons and material from State sources. In February, 2005, 
President Bush and Russian President Putin called for early adoption of 
the International Convention for the Suppression of Acts of Nuclear 
Terrorism (Nuclear Terrorism Convention), as well as the Amendment to 
the CPPNM. On April 13, 2005, the Nuclear Terrorism Convention was 
unanimously adopted by consensus by the United Nations (UN) General 
Assembly. The Russian Federation was the first signatory when the 
Convention opened for signatures on September 14, 2005, and the United 
States, the second. Our support for the Nuclear Terrorism Convention 
continues our policy of international cooperation among states, which 
is characterized by parallel, multilateral or joint action towards 
common nonproliferation goals.

Radiological Security
    The United States has developed and pursued a proactive strategy to 
strengthen the control of radioactive sources and materials globally, 
particularly those sources that could be used to build a radioactive 
dispersal device or "dirty bomb". The U.S. strategy seeks to (1) 
broaden international adherence to the IAEA Code of Conduct on the 
Safety and Security of Radioactive Sources (Code of Conduct), a 
voluntary set of national guidelines for cradle-to-grave control of 
sources; (2) promote global implementation of the IAEA Guidance on the 
Import and Export of Radioactive Sources (Guidance) that is 
supplementary to the Code of Conduct, to ensure that high-risk 
radioactive sources are supplied only to authorized end-users in 
countries that can control them; and (3) enhance the provision of 
technical and regulatory assistance to developing countries.
    After the September 11, 2001, attacks, the U.S. was a key player in 
revising the Code of Conduct, to enhance its security elements and 
effectiveness in preventing terrorists from obtaining radioactive 
material for use in a radiological dispersal device. In addition, the 
U.S. took the lead in developing and gaining political momentum for the 
import/export Guidance, the first international import and export 
framework for radioactive sources. The revised Code of Conduct and 
Guidance were approved by the IAEA Board of Governors in 2003 and 2004, 
respectively, solidifying their role as global standards. The U.S. has 
been successful in gaining high-level political commitments to the Code 
of Conduct and import/export controls in forums such as the 2003, 2004, 
and 2005 G-8 Summits; the U.S.-EU Shannon Summit; the Asia-Pacific 
Economic Cooperation (APEC); and the Organization on Security 
Cooperation in Europe (OSCE); as well as in gaining national 
commitments to the Code of Conduct by more than 80 countries.

Conclusion
    The programs and initiatives outlined above provide excellent 
opportunities for DOS to introduce new the technologies and ideas to 
combat states and terrorists attempting to achieve a biological or 
radiological capability. Our efforts also require that we look for 
opportunities to develop new partnerships, both public and private, 
that extend efforts across the globe to defense against this threat.
    DOS is, in particular, interested in strengthening security at WMD 
facilities by emphasizing to countries and businesses within 
radiological and biological industries to improve access controls by 
using advanced biometric technologies, improved cybersecurity measures 
to protect such facilities from hacker sabotage, and improved 
background checks and screening procedures to protect against the 
insider threat.
    To improve our efforts to prevent States and terrorists from 
acquiring WMD materials, technologies and expertise at the source, I 
should note that we are actively seeking to work in partnership with 
States, nongovernmental organizations, and industry in close 
coordination with our interagency partners. This approach allows us the 
flexibility to tailor our efforts to ensure sustainability and success 
for the programs we put in place, a concept emphasized by Secretary 
Rice in her vision of Transformational Diplomacy.
    Looking to the future, the Department will continue to make 
implementation of efforts to secure sources of nuclear and biological 
WMD materials, technologies, and expertise among our highest 
priorities. This will require improvisation and innovation to keep one 
step ahead of proliferators. Working with DOE , DoD, other government 
agencies, the private sector, relevant international organizations and 
other like-minded states, we will continue to invest heavily in keeping 
the world's most dangerous weapons out of the hands of the world's most 
dangerous people.

    Mr. Linder. Mr. David.

STATEMENT OF JACK DAVID, DEPUTY ASSISTANT SECRETARY OF DEFENSE 
                 FOR COMBATING WEAPONS OF MASS 
              DESTRUCTION AND NEGOTIATIONS POLICY

    Mr. David. Chairman Linder, Congressman Langevin, members 
of the subcommittee, it is an honor and privilege to appear 
before you today; and I thank you for it.
    I come here today to describe the current status and recent 
developments in the Defense Department's Cooperative Threat 
Reduction, or CTR, program.
    CTR fits within a broad strategic and organizational 
context for DOD known as combating WMD. In order to provide the 
subcommittee with insight to the broader context, I have used 
my prepared statement to describe it. I will focus my oral 
remarks more narrowly to address the challenges presented by 
fissile material security and biological weapons proliferation 
prevention.
    Mr. Chairman, the first point I will make about fissile 
material security is that this is principally not a 
responsibility assigned to the Department of Defense. Of 
course, we secure our own material working with the Department 
of Energy, which manages our nuclear stockpile. However, with 
respect to assistance to contributing to security of fissile 
material in other countries, DOD's focus is on fissile material 
in weaponized form. This predominantly means security of 
nuclear warheads.
    I mention this because the Departments of Defense and 
Energy tend to define our different mission areas based on the 
threat of fissile material at large, which is DOE, and nuclear 
warheads specifically, which is DOE and DOD. The distinction is 
not absolute, as in the case of WMD border security, where both 
departments manage separate but coordinated programs to address 
smuggling of nuclear materials. However, broadly speaking, it 
is important to think of DOD's CTR efforts supporting nuclear 
material security as focused primarily on warheads.
    With respect to warheads, DOD, through the CTR program, 
began addressing warhead security over a decade ago when it 
helped Kyrgyzstan, Belarus and Ukraine securely repatriate 
their warheads to Russia. The issue of warhead security 
continues to be of great concern to us, given the magnitude of 
the crisis that would be posed by a warhead gone missing.
    With the Bratislava Nuclear Security Cooperation Initiative 
(referred to by Mr. Paul) that Presidents Bush and Putin 
announced in February, 2005, we now are poised to complete this 
important security work at Russian nuclear warhead storage 
sites by 2008; and I might add that this is a perfect 
illustration of the cooperation and the coordination between 
the Department of Energy and the Department of Defense in 
dividing the work and getting it done right.
    This accelerated work was already under way through CTR and 
the related Department of Energy program. The work to secure 
Russia's nuclear weapons storage site was not programmed for 
completion before 2011. What was achieved by Bratislava was 
Russian agreement to supply information promptly on all warhead 
sites where Moscow concluded that it needed U.S. assistance. 
This, in turn, allowed us to agree to accelerate the work.
    Russia met its commitment to provide information about 
warhead sites for which it could use security assistance by 
providing detailed information in June, 2005. This allowed U.S. 
agencies and the Russian government to agree on an accelerated 
schedule to upgrade certain of the sites by 2008, 3 years 
early.
    In addition to securing warhead sites, CTR also supports 
safe and secure transport of Russian warheads from areas where 
they are detached from delivery systems to long-term storage or 
dismantling sites.
    I need to be very clear about CTR's warhead security work. 
We are not enhancing security of warheads attached to 
operational nuclear delivery systems. Rather, we are supporting 
Russia in its responsibility to secure its extensive warhead 
inventory across its vast and often remote array of storage 
facilities.
    The U.S. will be able to say by 2008 that we have done all 
we can to bring the security of Russia's nuclear weapons up to 
safer standards. That will be a significant achievement.
    CTR activities also seek to address the threat of 
biological weapons. The CTR Threat Agent Detection and Response 
project, or TADR--I don't like acronyms much--the Threat Agent 
Detection and Response project addresses the threat of poorly 
secured dangerous pathogens in former Soviet Union countries at 
the same time as it strengthens our ability to deal with these 
pathogens from wherever they may come.
    TADR is being implemented in Central Asian and Caucasus 
states. It is a web-based disease surveillance network that 
replaces the Soviet system of maintaining libraries of 
dangerous pathogens in numerous unsecured locations. It will be 
a vast improvement when it is fully implemented, and it is 
being implemented day by day.
    Through the TADR Program, we consolidate dangerous pathogen 
strains currently dispersed at various locations within a 
country in a central laboratory located in the capital city. 
The central laboratory that we help to construct and to design 
is designed to have the ability to characterize and securely 
store samples of the pathogen strains brought to it.
    A very important feature of this program is that the U.S. 
receives samples of each strain. This helps to enable us to 
determine in the future whether a disease outbreak is naturally 
occurring or a potential bioterror event.
    In 2005, we signed agreements on the Threat Assistance 
Detection and Reduction program with Azerbaijan and with 
Ukraine. These TADR program agreements follow others already in 
place with Georgia, with Uzbekistan and with Kazakhstan.
    The TADR project has been a key initiative for this 
Administration. We believe it helps meet a significant, 
unfilled requirement for the U.S. to stay abreast of and combat 
the global bioterror threat. TADR-supplied equipment and 
training already in place have been used to identify Avian 
Influenza in Ukraine.
    Mr. Chairman, I also would like to describe what DOD is 
doing to address the biological threat that is facing U.S. 
forces. Policy aspects of this issue are not dealt with by my 
CTR policy office, but by another office under my purview, my 
counter proliferation policy office.
    An important conclusion of the QDR was that the Department 
should focus on new defensive capabilities in the anticipation 
of a continued evolution of WMD threats. In response, DOD has 
decided to reallocate funding within the Chem-Bio Defense 
program to invest over $1.5 billion over the next 5 years to 
develop broad-spectrum countermeasures against advanced 
biological threats. Rather than continuing the traditional 
approach to developing countermeasures, which in effect 
resulted in one drug for one bug, DOD will conduct research to 
develop drugs that each can counter several pathogens.
    One example is the research we will be conducting to 
develop a single pharmaceutical to counter all types of viral 
hemorrhagic fevers, like Ebola and Marburg. Another is the 
effort we will make to develop a single pharmaceutical for all 
intercellular pathogens, like Plague. In both cases, we will be 
attempting to build on molecular biotechnology cutting edge 
technologies currently available.
    These initiatives will support combating WMD efforts in 
general but will be of particular benefit to our forces that 
may well be ordered to deploy to places where these fevers pose 
a risk. Having one drug that can counter many bugs will improve 
military effectiveness by getting forces into the theater more 
quickly, by protecting our forces more effectively, and 
complicating an adversary's military calculus on the effect of 
his potential use of lethal pathogens against our forces.
    In conclusion, Mr. Chairman, DOD understands that combating 
the spread of weapons of mass destruction requires thoughtful 
planning, adaptability to changing circumstances, and 
unwavering determination. These, we believe, are reflected in 
our new strategic guidance, realigned organizational structure, 
and in changes we are making to our day-to-day activities.
    Our commitment to success in this endeavor is absolute. 
Failure is not an option. Congress is an essential partner in 
this fight, and we look forward to continuing our work 
together. Thank you again for inviting me to testify.
    Mr. Linder. Thank you, Mr. David.
    [The statement of Mr. David follows:]

                    Prepared Statement of Jack David

    Chairman Linder, Congressman Langevin, Members of the Subcommittee, 
it is an honor to appear today to describe the current status and 
recent developments in the Defense Department's Cooperative Threat 
Reduction (CTR) program, with particular attention to security of 
fissile materials and biological weapons proliferation prevention. The 
portions of the CTR program related to these issues are important in 
and of themselves. However, they also fit within an important broader 
context of DoD's efforts to combat the proliferation of weapons of mass 
destruction (WMD). In order to illuminate the broader context for the 
subcommittee, I will use my prepared statement to describe the full 
range of DoD's efforts to combat the proliferation of WMD and our plans 
to implement recommendations outlined in the Quadrennial Defense Review 
(QDR) regarding WMD.
    The missions of preventing proliferation of WMD, preventing the use 
of WMD and enabling our warfighters to continue operations in a WMD 
environment are not new. Since December 2002, when the President set 
forth the National Strategy to Combat Weapons of Mass Destruction, the 
Department has taken a number of measures to enable us better to 
implement the Strategy. At the same time, while adapting at the 
strategic level, we have been carrying out the day-to-day activities--
some ongoing, some new, such as the Proliferation Security Initiative 
(PSI)--to implement policies dictated by the Strategy.

Strategic Guidance
    At the strategic level, preventing hostile states and non-state 
actors from acquiring or using WMD is one of the four priorities the 
Department identified in the Quadrennial Defense Review just issued by 
Secretary Rumsfeld on February 6, 2006. This is the first QDR that has 
devoted such attention to the threat of WMD. Also at the strategic 
level, Joint Chiefs Chairman General Peter Pace issued the first-ever 
National Military Strategy to Combat Weapons of Mass Destruction on 
February 13, 2006. Secretary Rumsfeld also endorsed the National 
Military Strategy to Combat WMD. The strategic approach of the QDR and 
of the National Military Strategy to Combat WMD is built on the "three 
pillars" of combating WMD identified in the 2002 National Strategy to 
Combat WMD: nonproliferation, counterproliferation and consequence 
management. We define these terms as follows:
    Nonproliferation--Actions to prevent the proliferation of weapons 
of mass destruction by dissuading or impeding access to, or 
distribution of, sensitive technologies, material, and expertise.
    Counterproliferation--Actions to defeat the threat and/or use of 
weapons of mass destruction against the United States, U.S. Armed 
Forces, its allies, and partners.
    WMD Consequence Management--Actions taken to mitigate the effects 
of a WMD attack, or event, and to restore essential operations and 
services at home and abroad.
    The National Military Strategy to Combat WMD identifies eight 
military mission areas that support the pillars in the National 
Strategy: offensive operations, elimination operations, interdiction 
operations, active defense, passive defense, WMD consequence 
management, security cooperation and partner activities, and threat 
reduction cooperation.
    This strategic framework is the Department's way of dividing the 
broad "combating WMD" mission into specific, definable, manageable 
activities. By dividing the mission in this way, we can address it with 
greater focus in the budget, training, doctrine and policy processes.

Organizing for the Combating WMD Mission
    In addition to better defining the strategic framework to address 
WMD, the Department of Defense has transformed its organizational 
structure to better combat WMD. On January 6, 2005, the Secretary of 
Defense designated the United States Strategic Command (STRATCOM) as 
the Department's lead for synchronizing and integrating combating WMD 
operational efforts in support of our Combatant Commanders. In this new 
role, STRATCOM supports other Combatant Commanders as they execute 
combating WMD operations. On January 31, 2006, the Secretary of Defense 
gave the Director of the Defense Threat Reduction Agency (DTRA) an 
additional duty by appointing him Director of STRATCOM's Combating WMD 
Center (SCC). This appointment was recommended by the QDR. It is 
intended to enhance STRATCOM's ability to synchronize and integrate the 
Department's combating WMD operational efforts. STRATCOM, through the 
SCC, is charged with identifying combating WMD requirements and 
advocating for them throughout the budget process. Secretary Rumsfeld, 
in his January 6, 2005 letter designating STRATCOM as the DoD lead for 
synchronizing and integrating DoD's combating WMD efforts, specifically 
directed STRATCOM to address WMD elimination and interdiction as its 
first two missions and, in regard to each, to substantially increase 
our capabilities.
    Complementing the WMD assignment to STRATCOM, all DoD components 
have been directed to realign themselves to improve execution of the 
combating WMD mission. Within the Office of the Under Secretary of 
Defense for Policy, for example, my own office realigned to create a 
near-single point of contact for policy support of the combating WMD 
mission. My office is now responsible for six of eight mission areas 
identified in the National Military Strategy to Combat WMD: elimination 
operations, interdiction operations, active defense, passive defense, 
security cooperation and partner activities and threat reduction 
cooperation. My sister office, Forces Policy, is responsible for the 
"offensive operations" mission area. The Policy Organization's 
oversight of the "consequence management" mission is still being 
addressed.
    The goal of DoD's recent elaborations of strategy and rearrangement 
of components is summed up by quoting the following words from 
President Bush's January 20, 2004, State of the Union address: "America 
is committed to keeping the world's most dangerous weapons out of the 
hands of the most dangerous regimes." To fulfill this commitment, the 
QDR directs that "national efforts to counter the threat posed by 
weapons of mass destruction must incorporate both preventive and 
responsive dimensions." Preventive activities include those that: build 
and expand global partnerships aimed at preventing proliferation; stop 
WMD-related trafficking; help friendly governments improve controls 
over existing WMD; and discredit WMD as an instrument of national 
power. When preventive activities fail, DoD must be prepared to 
respond. DoD must be prepared to locate, secure and destroy WMD.

Preventive Dimension of Combating WMD
The Toolkit for Preventive Activities
    With respect to the preventive dimension, we have long viewed 
nonproliferation treaties and export control regimes as integral 
elements of our strategy for combating WMD. These treaties and regimes 
include the Nuclear Non-Proliferation Treaty, the Chemical Weapons 
Convention, the Biological Weapons Convention, the Nuclear Suppliers 
Group, the Australia Group, the Wassenaar Arrangement and the Missile 
Technology Control Regime. DoD brings significant policy and technical 
expertise to bear on enforcement of these regimes through my office, 
Combating WMD & Negotiations Policy and through the Defense Technology 
Security Administration.

Interdiction
    While these regimes are important to preventing proliferation of 
WMD, not all countries are members of all regimes and many countries 
that are members cheat. WMD-related programs of countries like Iran and 
North Korea show the importance of additional measures such as 
interdiction. Interdiction is an essential component of our effort to 
prevent proliferation activities of both suppliers and customers. The 
threat of interdiction increases the costs for proliferators. It may 
even deter some suppliers from getting into the business of 
proliferation. DoD is taking steps to strengthen U.S. military 
capabilities to support interdiction. In October 2005, the Naval War 
College organized the first government-wide, classified gaming exercise 
for all U.S. agencies involved in interdiction. The U.S. Navy has 
improved shipboarding and cargo assessment by validating its new Visit 
Board Search and Seizure team capability. The Defense Intelligence 
Agency has established a new division for interdiction support to DoD 
policy makers. These steps and others being taken will give us an ever-
improving interdiction capability.

The Proliferation Security Initiative (PSI)
    Since President Bush launched the PSI in May 2003, we have worked 
more closely with other governments on interdiction. The PSI has 
encouraged the United States and other countries to collaborate to 
interdict WMD-related shipments bound to and from states of concern. It 
also has encouraged and enabled them to improve national capabilities 
supporting interdiction of WMD-related shipments. As a result, like-
minded nations are developing a more robust arsenal of WMD interdiction 
tools.
    PSI participants define interdiction broadly to include military, 
law enforcement, intelligence, and diplomatic efforts to impede and 
stop proliferation*-related shipments. The PSI concerns shipments by 
sea, air or land, as well as trans-modal shipments. Today more than 75 
countries from all regions of the world have indicated support for the 
PSI. We continue to discuss the initiative with key states in the areas 
where proliferators may operate.

Cooperative Threat Reduction (CTR)
    Mr. Chairman, Congress already is familiar with the history and 
details of the Cooperative Threat Reduction program. The Under 
Secretary of Defense for Policy, through my office, provides policy 
guidance and oversight for the Cooperative Threat Reduction program. 
The Defense Threat Reduction Agency implements that guidance.
    The CTR program supports two of the mission areas identified by the 
National Military Strategy to Combat WMD: threat reduction cooperation 
and security cooperation/partner activities. The program continues to 
help eliminate WMD material and enhance security for permissible stocks 
of WMD, particularly WMD left over in the former Soviet Union. As the 
subcommittee requested, I will focus my testimony on recent 
developments in CTR, as well as on priorities for the year ahead. I 
also will highlight the nuclear security and biodefense areas in which 
the subcommittee has expressed interest.
    DoD has accomplished a great deal by means of the CTR program in 
fiscal years 2005 and 2006-to-date. In this timeframe, CTR continued 
its WMD infrastructure elimination work in Russia: CTR projects 
destroyed 42 intercontinental missiles and continued work to destroy 
SS-24/25 mobile missiles as well as their rail- or road-mobile 
launchers. CTR has also continued work on the Chemical Weapons 
Destruction Facility at Shchuch'ye. The Shchuch'ye facility will 
provide Russia a capability to eliminate some 2.1 million artillery 
shells and rockets loaded with nerve agent. The shells and rockets to 
be destroyed are very proliferable as they easily can be transported. 
At Shchuch'ye, both the Russian-built and CTR-built main chemical 
weapons elimination buildings stand near completion. They are ready to 
be outfitted internally with chemical handling and neutralization 
equipment.
    Also in Russia, CTR has continued its assistance to improve the 
security of nuclear warheads in storage. With the President's 
Bratislava Nuclear Security Cooperation Initiative of February 2005, we 
accelerated work that was already under way through CTR and a related 
Department of Energy program. This work was not programmed for 
completion before 2011. We now are poised to complete our security work 
at Russian nuclear warhead storage sites by 2008.
    What was achieved at Bratislava was Russian agreement to supply 
information promptly on all warhead sites where Moscow viewed U.S. 
assistance to be necessary. Russia met that commitment by providing 
detailed information in June 2005, which allowed U.S. agencies and the 
Russian government to agree on an accelerated schedule to upgrade 
security at select sites by 2008.
    Let me be clear: the U.S. is not enhancing security of warheads 
attached to operational nuclear delivery systems; rather, we are 
supporting Russia in its responsibility to secure its extensive warhead 
inventory across its vast and often remote array of storage facilities. 
The U.S. will be able to say by 2008 that we have done all we can to 
bring security of Russia's nuclear weapons up to credible standards. 
That will be a significant achievement. We needed Congressional help 
with this endeavor, and Congress delivered: the accelerated schedule 
required an additional $44.5 million in Fiscal Year 2006 funds, which 
were included in the recently enacted Supplemental Appropriations 
measure. We appreciate this support very much and look forward to 
keeping Congress updated on the progress we make implementing the 
Bratislava Initiative.
    DoD implementation of CTR programs in the past year also has 
addressed the threat of biological weapons. The CTR "Threat Agent 
Detection and Response" (TADR) project addresses the threat of loose 
dangerous pathogens in former Soviet Union countries at the same time 
as it strengthens our ability to deal with these pathogens should they 
come from another source.
    TADR is being implemented in Central Asian and Caucasus states. It 
is a web-based disease surveillance network that replaces the Soviet 
system of maintaining libraries of dangerous pathogens in unsecured 
locations. In the TADR program, we consolidate dangerous pathogen 
strains currently dispersed at numerous locations within a country in 
to a few central locations. We help to construct Central Reference 
Laboratories typically in the capital cities of partner countries. 
These are designed to have the ability to characterize and securely 
store collected samples of dangerous pathogens. A very important 
feature of the TADR program is that the U.S. receives samples of each 
of the collected pathogen strains. This will better enable us to 
determine whether a disease outbreak is naturally occurring or a 
potential bio-terror event.
    In 2005, we signed agreements on TADR assistance with Azerbaijan 
and with Ukraine. These TADR program agreements follow others already 
in place with Georgia, Uzbekistan and Kazakhstan. The TADR project has 
been a key initiative for this Administration. We believe it helps meet 
a significant, unfilled requirement for the U.S. to stay abreast of and 
combat the global bio-terror threat. TADR-supplied equipment and 
training already in place have been used to identify Avian Influenza.
    During the past year, DoD also made advances in combating WMD as a 
result of its CTR WMD border security project. This project is known as 
the WMD-Proliferation Prevention Initiative (PPI). The PPI was 
conceived early in the present Administration and influenced heavily by 
the September 11 attacks. DoD took the CTR program in a fundamentally 
new direction when it introduced PPI. Before PPI was introduced, the 
CTR program dealt with WMD only at its source.
    9/11 highlighted the need to address the threat of "WMD-on-the-
move." PPI focuses on countries that are willing to try to stop WMD on 
the move but lack resources to do so. In initiating PPI, DoD expanded 
the CTR program from simply helping countries to destroy WMD and 
related items in place to helping countries to build detection/
interdiction capabilities. PPI is now working in Ukraine, Uzbekistan, 
and Azerbaijan. We recently expanded activities in Ukraine, and signed 
key legal agreements with Kazakhstan to allow us to begin PPI projects 
with that country as well. We are focusing on Central Asian countries 
because of their proximity to Russia in order to create a WMD "safety 
net." As successful as we hope the CTR PPI projects are, DoD is not 
limiting these combating WMD projects to merely supplying equipment 
through PPI. We are working with the Combatant Commands to provide 
training, doctrine and tactics for the equipment we help bring to CTR 
PPI partners.
    Finally, I can report that in May 2005, DoD took the initiative to 
extend the CTR program's legal framework with Russia - over one-year 
ahead of expiration. We took this step to avoid a disruption of CTR's 
important work such as occurred seven years ago, the last time the 
framework required extension. We are pleased to report that the 
extension protocol was finally signed on June 17, with acceptable terms 
for the U.S. This will allow CTR's important work to secure and 
eliminate WMD and related infrastructure in Russia to continue 
uninterrupted.

International Counterproliferation Program (ICP)
    Mr. Chairman, I want to take a moment to describe DoD's 
International Counterproliferation Program, which is a small but 
important element of our "toolkit" for combating proliferation of WMD, 
particularly radiological material. As in the case of the CTR program, 
the ICP program is implemented by the Defense Threat Reduction Agency. 
Also like the CTR program, policy matters for ICP are handled by my 
office. The March 2006 transfer of ICP from its previous home in the 
Eurasia regional office to be in my office is another example of how we 
are consolidating and aligning DoD policy responsibilities related to 
combating WMD.
    The ICP attempts to build capabilities to secure borders of 
participating nations against illicit trafficking among partner 
nations. The ICP works with the US Customs and Border Protection 
Service, the FBI, and other U.S. agencies to provide training that is 
focused specifically at the law enforcement and regulatory level. It is 
intended to make proliferation of WMD across borders much more 
difficult. At first glance, the ICP looks a lot like the new CTR border 
security initiative I described above. However, there are key 
differences in programmatics, authorities, and policy objectives.
    Programmatically, the ICP has always been a "niche" activity, with 
funding at $12-$15 million annually. The ICP also has not provided 
participating countries with heavy infrastructure or extensive 
procurement, as CTR often has and does. The ICP's authorities are also 
more geographically flexible than those of CTR: with approval of the 
Secretary of Defense, the ICP can be implemented in any country in the 
world. As you know, absent Presidential approval to work elsewhere, the 
CTR program may be implemented only in countries of the Former Soviet 
Union. In addition, the ICP has regional objectives not present with 
CTR. ICP training sessions and other activities are conducted, to the 
extent possible, on a multilateral basis in order that partner 
countries can be encouraged to think about WMD border security as a 
regional challenge, not merely a national one.
    ICP is still new to my office and we are conducting a top-to-bottom 
review and revalidation of past practices. We will ensure that ICP 
activities are supportive of national strategies, coordinated with 
other agencies' activities, and leveraged with other programs to 
achieve the best results possible.

Responsive Dimension of Combating WMD
Investing for the Future
    Developing our strategies, restructuring our organizations and 
changing our daily activities will be of no avail without adequate 
funding for corresponding capabilities, technologies and mission areas. 
The autumn 2005 program/budget review undertook a comprehensive 
analysis of combating WMD funding. This analytical process was carried 
through the QDR. Beginning with the FY2006 budget submission, we added 
$2 billion to the previous $7.6 billion Fiscal Year 2006-2011 
allocation for the Chemical Biological Defense Program and related 
infrastructure (an increase of almost 20%). The increase in chem-bio 
defense funding represents a down payment toward elevating the policy 
and programmatic attention we must give this area.

Joint Task Force for Elimination
    One of the earliest lessons learned from our military operations in 
Iraq was that DoD needed a well organized, well trained force to be 
able to quickly and systematically locate, seize, secure, disable and 
safeguard an adversary's WMD program, including sites, laboratories, 
materials, and associated scientists and other personnel.
    The Army's 20th Support Command, located north of Baltimore at the 
Edgewood Area of Aberdeen Proving Ground, was stood up as an Army 
headquarters. It is tasked to provide technically qualified chemical, 
biological, radiological, nuclear and high-yield Explosives (CBRNE) 
response forces to support geographic Combatant Commanders. This unique 
organization includes the Army's Technical Escort Battalions as well as 
an Army Explosive Ordnance Disposal (EOD) Group. While the 20th was not 
established until after Operation Iraqi Freedom, many of its units 
participated in the search for WMD in Iraq.
    The 20th Headquarters was activated in 2004. However, while the 
military units assigned to this headquarters are deployable, the 
headquarters itself cannot deploy today since nearly two-thirds of the 
staff is composed of government civilians or contractors. In the QDR 
process, DoD leadership approved a proposal to assign 20th Support 
Command the task of becoming a deployable headquarters that could 
command and control these types of operations. Establishing a joint 
task force for elimination is a key element of the Department's vision, 
as articulated by the QDR, to deal with all aspects of the threat posed 
by weapons of mass destruction. The 20th gives us a base on which to 
build.

Biodefense Initiative
    Another key conclusion of the QDR was that the Department should 
focus on new defensive capabilities in anticipation of the continued 
evolution of WMD threats. In response, DoD has decided to reallocate 
funding within the Chem-Bio Defense program to invest over $1.5B over 
the next five years to develop broad-spectrum countermeasures against 
advanced biological threats. Rather than continuing the traditional 
approach to developing countermeasures--which in effect results in "one 
drug, one bug"--DoD will conduct research to develop drugs that each 
can counter several pathogens. Another example is the research we will 
be conducting to develop a single pharmaceutical to counter all types 
of viral hemorrhagic fevers (like Ebola and Marburg). Another is the 
effort we will make to develop a single pharmaceutical for all 
"intracellular" pathogens, like Plague. In both cases, we will be 
leveraging molecular biotechnology cutting edge technologies currently 
available. These initiatives will support combating WMD efforts in 
general but will be of particular benefit to our forces that may well 
be ordered to deploy to places where these fevers pose a risk. Having 
one drug that can counter many bugs will improve military effectiveness 
by getting forces into the theater more quickly, protecting our forces 
more effectively and complicating an adversary's military calculus on 
the effect of his potential use of lethal pathogens against them.

Building Partner Capacity
    More than ever before, we need partners be to be prepared for 
operations with us in a CBRN world. In 2002, the Department proposed 
creation of a CBRN Defense Battalion for NATO. This U.S. concept was 
endorsed by NATO defense ministers during the 2002 Prague Summit. 
Elements of a fully operational NATO CBRN Defense Battalion supported 
the 2004 Summer Olympics just over one year later. The NATO Battalion 
includes a CBRN joint assessment team and mobile chemical, biological 
and radiological laboratories; it has received personnel and capability 
support from seventeen NATO nations to date. The concept for the 
Battalion and the way it was quickly institutionalized were 
unprecedented at NATO. We continue to encourage strengthening of the 
Battalion's capabilities and also encourage member nations to improve 
their own combating WMD capabilities. The Battalion will be a model for 
future collaboration as we expand counterproliferation discussions with 
other nations.
    We are aggressively pursuing the establishment of formal, regular 
bilateral discussions with international partners outside NATO on 
counterproliferation issues ranging from policy and operational support 
to detailed technical cooperation. We have or are establishing such 
bilateral working groups with countries from Europe, the Middle East, 
and Asia to respond to the use of WMD against us. Our partners in the 
working groups share our desire to prepare to defend against the WMD 
threat. A central goal of the bilateral working groups is to ensure 
that U.S. and potential coalition partners can execute combined 
operations in a WMD environment.
    The challenge of interoperability is significant in a conventional 
warfighting environment. The challenge in a WMD situation is even 
greater as it raises many complicating issues. For example, if our 
combat or transport aircraft are returning from an area where WMD has 
been employed, we need to know in advance what decontamination our 
allies will require in order to ensure ready access to important way 
stations and forward depots. Similar problems relate to the 
decontamination of forces--including potentially wounded personnel--who 
will require immediate evacuation and attention. We have launched 
discussions with our NATO allies as well with several key potential 
coalition partners on these and other issues we believe need to be 
resolved for combined operations in a WMD environment.
    Building partner capacity takes many forms and can include building 
legal capacities. In 2005, Navy, Joint Staff, General Counsel and OSD-
Policy representatives completed three years of activity to expand 
legal authorities against maritime trafficking in WMD-related 
materials. We helped secure adoption of amendments to the Convention on 
Suppression of Unlawful Acts at Sea Against the Safety of Maritime 
Navigation, establishing the first international standard for 
criminalizing maritime activities related to WMD as well as a 
comprehensive boarding regime for WMD-related maritime shipments. Once 
the Amendment enters into force, after ratification by 12 member-
states, we will have a new law to prosecute violators and press for 
greater vigilance against trafficking in WMD.

Conclusion
    Mr. Chairman, DoD understands that combating the spread of weapons 
of mass destruction requires thoughtful planning, adaptability to 
changing circumstances and unwavering determination. These, we believe, 
are reflected in our new strategic guidance, realigned organizational 
structure, and in changes we are making to our day-to-day activities. 
Our commitment to success in this endeavor is absolute. Failure is not 
an option. Congress is an essential partner in this fight, and we look 
forward to continuing our work together. Thank you again for inviting 
me to testify.

    Mr. Linder. Mr. David, can President Putin deliver on 
behalf of Ukraine or Kazakhstan?
    Mr. David. Deliver on behalf of Ukraine?
    Mr. Linder. Access, for example, to sites. Clearly, all the 
sites weren't in Russia.
    Mr. David. I think that we are working closely with 
Kazakhstan and Ukraine and the governments in those places, but 
I don't know that, at this point in time, President Putin has 
very much influence or information to support our efforts in 
those two countries that we don't otherwise have.
    Mr. Linder. So the Bratislava agreement does not affect any 
of the other--
    Mr. David. No.
    Mr. Linder. Since we have asked Russia for access to their 
sites, it is because are we giving them access to ours? Fort 
Detrick, for example?
    Mr. David. No. In fact, we have access to their sites--when 
we have access to their sites, it is because we are in a 
position to provide assistance. It is for the assistance that 
we can provide that is in their interest and in our interest 
that they will give us access. This is not a program or this is 
not a situation like the START Agreement where there are mutual 
inspections.
    Mr. Linder. We have more access to their nuclear sites than 
their biological sites; is that correct?
    Mr. David. Yes, that is true.
    Mr. Linder. What are we doing about the biology side of the 
equation?
    Mr. David. There are five places where we assist Russia in 
biological sites for security. There are some limited joint 
research projects that we have with Russia. But, other than 
that, further U.S. support for collaborating with Russia in 
this way, as we do in Kazakhstan or we do in Azerbaijan, for 
example, under the CTR program, is prevented because Russia 
doesn't want us to have access and because we don't have an 
agreement in place. We can't reach an agreement which will be 
satisfactory.
    Mr. Linder. You said in 2008 we will be able to say we have 
done all we can. Is that because we have decided all of the 
sites are up to credible standards, or is that because the 
Russians have decided that is the end of the road?
    Mr. David. The emphasis on my answer is on the word ``we'' 
have done all we can because we have done all that they have 
allowed to us do.
    Mr. Linder. Mr. Record, what are we doing about Russia's 
store of smallpox?
    Mr. Record. Well, we are engaged with them on a broad 
dialogue on these kind of issues through some of the programs I 
mentioned, and--
    Mr. Linder. Apparently, I wasn't very clear. What are we 
doing with Russia with respect to their store of smallpox?
    Mr. Record. Well, sir, as I said, that is something that we 
have talked to them through our newly created programs, 
including the BII and the biological programs I mentioned.
    Mr. Linder. And where are we?
    Mr. Record. Well, at this point. I can't give you a status 
report. I would be glad to give you that for the record.
    Mr. Linder. I would like you to do that.
    Mr. Linder. Do we have a sense of how much they are 
storing?
    Mr. Record. I don't--I will give that to you.
    Mr. Linder. Do we have a sense of whether they have more 
today than they had 30 years ago or less? Because some has 
disappeared.
    Mr. Record. I will have to get that for you for the record, 
sir.
    Mr. Linder. Which countries have not held up to their 
portion of the $20 billion G8 pledge?
    Mr. Record. Well, the pledging--as you know, I gave general 
numbers for pledging. Unfortunately, we weren't able to get 
specific numbers for other countries in terms of their overall 
pledges.
    We have committed about, as I understand it, $3.3 billion 
of our $10 billion pledge as of fiscal year 2005; and my 
understanding is the global partnership has not formally 
exchanged data on actual obligations, so we don't right now 
have numbers for the other countries, but I can go back and get 
more information on that.
    Mr. Linder. Do we think it is important?
    Mr. Record. Yes, we do, absolutely.
    Mr. Linder. Then why aren't we tracking this?
    Mr. Record. Well, as I say, there is certain data exchange 
protocols you have in those countries, and it is difficult to 
get those information, but we can certainly go back and try and 
get it from you.
    Mr. Linder. Didn't the Republic make a pledge?
    Mr. Record. Yes, they have.
    Mr. Linder. Did the Republic make a pledge with respect to 
amounts?
    Mr. Record. Yes, they have.
    Mr. Linder. And we don't know if they have done anything?
    Mr. Record. Well, it is hard for us to track information 
this way.
    Mr. Linder. Why?
    Mr. Record. Because it is hard to get that information from 
them. But, as I say, I can try and go back and do that. We did 
check, sir, before the hearing, so we made those efforts, and 
we will keep trying to make those efforts.
    Mr. Linder. Mr. Paul, you mentioned in your testimony the 
program to eliminate 34 metric tons of plutonium in Russia and 
the U.S. How far along are we?
    Mr. Paul. That is right. It is 34 metric tons in the U.S., 
34 metric tons in Russia. Each country has agreed to develop a 
facility to dispose of that material--
    Mr. Linder. Dispose of it or degrade it?
    Mr. Paul. To ultimately dispose of it, first, by converting 
it into a mixed oxide and then irradiating it in a light water 
reactor, a regular commercial reactor.
    On the U.S. side, the MOX plant in the Savannah River site 
in South Carolina, 85 percent finished with design. We started 
the site preparation back in August, and we intend to--our 
schedule is to begin construction by the end of this year.
    On the Russian side, they are not quite as far along. There 
have been some hold-ups, more than a 2-year delay due to a 
dispute over liability issues. There is a liability protocol, 
an agreement that has been verbally agreed to, but the Russians 
have not yet signed. We are currently waiting for that 
signature.
    Mr. Linder. Thank you.
    Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman; and thank you again 
for your testimony, gentlemen.
    As I mentioned in my opening statement, security in Russia 
still concerns me. I think it should concern all of us.
    In a previous hearing, Davis Heisinger from the Department 
of Energy had revealed that his Russian counterpart had 
informed him that there were some 200 potential nuclear or 
radiological smuggling incidents last year. Mr. Heisinger's 
testimony confirms the key judgment of the National 
Intelligence Council's report at the Congress on the safety and 
security of Russian nuclear facilities and military forces 
published in 2004. This report states that undetected smuggling 
has occurred since the end of the Cold War, and this committee 
finds this information obviously very disturbing.
    Can you tell me what improvements in our nonproliferation 
programs are needed to reduce the number of smuggling 
incidents? And is this an issue of funding, or does the problem 
lie with the political and bureaucratic hurdles that have 
hindered our efforts with the Russians since the end of the 
Cold War?
    Mr. Paul. Yes, sir. It is indeed troubling--
    Mr. Langevin. The question is for the panel, but we will 
start with you.
    Mr. Paul. It is indeed troubling to us as well; and it is, 
of course, why we spend so much time and why you appropriate so 
many resources to help us secure those facilities. Congress and 
this committee has been very supportive of trying to secure 
those facilities by putting in place the security upgrades and 
the material protection control and accounting, shifting over 
from the systems that the Russians previously had that was 
really human centered to one now that is complemented by having 
materials accountability, physical protection, control.
    As to the Russian customs open reporting that there had 
been a certain number of smuggling incidents, I don't have a 
lot of information about what the split is between nuclear or 
radiological. It is believed to be largely radiological. Both 
are troubling, of course. But that is why we put so much time 
and effort and energy into these programs. And even though at 
times we talk about how proud we are of our success, we also 
recognize that there is still a tremendous amount of work to be 
done.
    In Russia, in terms of upgrading sites, we have completed 
80 percent of the material sites, 64 percent of the warhead 
sites, and that is really accelerating now in part because of 
Bratislava but in part because it took quite a while to get the 
access. We are finally getting the type of access that we need, 
and we believe that we will be able to complete those security 
upgrades by 2008.
    We, too, are constantly looking for creative ways to 
accomplish this as fast as we possibly can, but, of course, 
there are limitations in as much as we are dependent upon 
cooperation from them. So the cooperation has improved in some 
areas, in part because of President Bush and President Putin's 
leadership on this, but I still have to state great caution, 
that there is still much work to be done.
    Mr. Langevin. Given the report of the National Intelligence 
Council and the detailed smuggling that they have reported on 
nuclear types of materials or components and given Mr. 
Heisinger's comments and some information that he related to us 
from his counterpart, should we and can we have a much higher 
degree of confidence that that level of smuggling is not 
occurring anymore?
    Mr. Paul. I think that every day that we secure another 
site our confidence in preventing those events goes up.
    Sure, we hear your concern. That is why we focus so much 
energy and attention on it--and have in the last 5 years and 
prior to then as well. Each time we secure a site, each time we 
secure material, each time we have some success, some progress, 
get more access, put in more protection and equipment and 
increase their training and work on sustainability, we improve 
or increase our confidence by trying to close that gap that you 
are referring to, that gap that troubles you, and it troubles 
me.
    Mr. Langevin. Isn't it true that that work would be 
exponentially accelerated if adequate resources were funding 
these programs?
    Mr. Paul. Certainly. To accomplish more work certainly 
requires more resources. That is why, since 2001, we have more 
than doubled the amount of funding placed in nuclear 
nonproliferation, including securing of material sites in 
Russia, an extraordinary, really historic increase in resources 
that have been dedicated to that.
    So let me just answer your question by saying yes.
    Mr. Langevin. I, for one, don't think we are doing nearly 
enough with respect to funding these nonproliferation programs; 
and until the administration, the Congress gets serious about 
the value of resources, we are putting our citizens and our 
country and indeed other nations of the world at great risk.
    Mr. Record. Let me just say a couple of words. In addition 
to the funding issues that you are highlighting, I would just 
like to say a couple of words about the process, and then maybe 
there is a feedback loop you can see in how we would approach.
    There is a Nuclear Trafficking Response Group that is in 
place. It is a state-led inter-agency body that follows up on 
individual smuggling cases and reports of these; and we have 
representatives of a wide number of agencies, law enforcement, 
Intelligence Community, to ensure that smuggled material is 
secure and, where possible, to identify the facility or country 
from which it was smuggled or diverted. And to the extent this 
group, this NTRG, is able to develop this actionable 
information, then we would share that with those responsible 
for carrying out and implementing U.S. assistance programs that 
are capable of addressing material protection and control. So 
those would be a loop in that so we can address the problem at 
the source from a number of cases that we are looking at.
    I also draw your attention to the Nuclear Smuggling 
Outreach Initiative, which conducts very comprehensive reviews 
of security concerns in priority countries. That is an ongoing 
effort both in nuclear and radioactive materials, and that is 
with DOE and other relevant agencies. So where we find gaps 
existing in this effort, what we do at State is to engage other 
agencies and to try to close those gaps in cooperation with 
other agencies and international donors.
    Also, the Nuclear Smuggling Outreach conducts comprehensive 
assessments of other countries' nuclear regulatory capabilities 
to look at how they can upgrade their own efforts as well.
    Mr. David. One of the problems in a cooperative program is 
that one side--in this case, our side, the United States--
sometimes comes to feel that we haven't gotten as much 
cooperation as we would have liked, as much responsiveness as 
we would have liked, the kind of action that we would have 
liked. So, a couple of years ago we instituted a program--I 
shouldn't say a program--we instituted a method of addressing 
that, which was the executive review method.
    We have executive reviews multiple times a year in each of 
the countries in which we operate, including Russia. We sit 
down with the Russians who are in charge of their program, and 
we can assert our complaints, and we can find ways of resolving 
matters and moving things forward.
    Sometimes the difficulty that they have in being responsive 
has to do with their capability of advancing quickly enough. 
They may have budgetary concerns because we require them to 
contribute their own resources because it is for them, too. It 
is for them and for us, so we don't pay the whole freight. And 
we want them to do that, and that is the right thing. So we 
have these discussions with them, and there are actions that 
come from those discussions, and we reach compromises on small 
things to move things forward.
    This last year I was in Russia, and we had a problem of an 
explosion at a particular burn facility for strategic missiles 
that were being destroyed. They didn't have the funding because 
their budget cycle was different than allowed them to do it. So 
we worked things around so we provided money for a short time, 
and they paid us back later, but these things do slow up the 
process to a degree that all of us don't like.
    Mr. Linder. Does the gentleman from Pennsylvania wish to 
inquire?
    Mr. Dent. Yes, thank you, Mr. Chairman.
    I just want to get back to the funding issue that 
Congressman Langevin just raised. Do you believe that the 
funding for nonproliferation activities is adequate at this 
current time? Do you feel that you are underfunded? Do you 
think you need more resources?
    Mr. David, do you want to take a crack at that?
    Mr. David. I am not sure I--when you asked the question, I 
thought you were referring to the nonproliferation fund at the 
State Department--
    Mr. Dent. I am sorry, I meant Mr. Record.
    Mr. Record. You are referring to the NDF program?
    Mr. Dent. Correct.
    Mr. Record. Well, at present, it has certainly been 
adequate. It is a very versatile program, as I alluded to 
earlier in my testimony; and it is able to go the full range, 
from disposing of manpads in one country to servicing their 
missiles in Southeast Asia. So it has proven to be adequate, 
including the new challenges.
    Mr. Dent. Earlier this week, Congress was notified by the 
President that insecure fissile material in Russia remains a, 
quote, national emergency. I assume this relates to the annual 
certification requirements to maintain the executive branch 
authority for implementing the various threat reductions 
productions, is that correct?
    Mr. Record. That is correct.
    Mr. Dent. And which project does this apply to 
specifically?
    Mr. Record. Well, it is a broad range. I think it is 
covered pretty well in my testimony regarding some of the key 
priorities that we have under the CTR, the dismantlement of 
fissile material and related efforts.
    Mr. Dent. Thank you.
    Mr. Paul, can you tell us anything about what is going on 
in Pakistan these days? There was a problem with Dr. Khan all 
those years and his proliferation activities. What is the state 
of affairs in Pakistan with respect to the proliferation issues 
these days?
    Mr. Record. Well, we are cooperating with Pakistan, with 
the IAEA to fully investigate the Kahn network. I think that is 
what you are looking at, right?
    Mr. Dent. Correct.
    Mr. Record. And we welcome--the foreign ministry just 
indicated to us that that assistance is going to continue. We 
look forward to working with them.
    We understand that they released Mohammed Farouk from 
prison. We have withheld comment until we have a better 
understanding of the conditions of his release in terms of that 
issue.
    But it is important that all countries take steps to ensure 
that the key members of the network can no longer participate 
in nonproliferation-related activities. So we look to other 
countries to deal with that issue.
    Mr. Dent. And I guess, finally, I am encouraged to hear 
that 80 percent of the sites--I think you referred to it, Mr. 
Paul--have been secured. I guess what worries me is what I 
don't know and what material may have escaped, unknown to you 
or any of us. Could you just comment on that? All the material 
that has been secured is very important, of course, but do you 
have any idea of what is unsecured or lost or just simply 
unaccounted for?
    Mr. Paul. It is a great question. Thank you, Congressman. 
We have concerns, too, about what we don't know, but we also 
maintain close coordination and cooperation with the 
Intelligence Community to close that gap in knowledge and try 
to close the gap that the Congressman referred to between 
having that sense of confidence that everything is secured. I 
can assure you and assure the American people that we are doing 
absolutely everything we can to close both of those gaps.
    We do have a level of confidence about the progress that we 
are making. There is much more work to be done.
    To refer back to the question about funding--and your 
question about funding as well, sir--although the point can be 
made that by appropriating more funds you can accomplish more 
work, that is not always the case. Obviously, in a cooperative 
program there are limitations based on access and based on 
cooperating with another country whose facility we don't 
control. Obviously, everyone on this committee recognizes that.
    What I can tell you is that, in the area of 
nonproliferation, in the last 3 years and 5 years, going all 
the way back to--going back to 2005, we have had historic 
increases by this Congress and this administration in funding 
and resources dedicated to nonproliferation, more than doubling 
the total amount that was being spent in 2001. And none of the 
programs that I referred to--the securing of the remainder of 
those sites, for example--is limited by a lack of funds. We are 
moving as fast as we can.
    At some point, more money won't always necessarily get you 
a quicker rate. That really is the whole point of Bratislava, 
was to help us have something to manage to accelerate the 
timetables, which we have done. For example, accelerating the 
time frame for completing all of those upgrades a full 2 years, 
to 2008. And we are on schedule, on task and going to meet that 
deadline, a deadline that all of the experts who have looked at 
this have said is the soonest you could legitimately hope to 
get those things accomplished if properly funded, and this 
Congress and this administration has funded them.
    Mr. Linder. The time of the gentleman has expired.
    Does the gentleman wish to inquire?
    Mr. Dicks. Yes. Let me ask you just a couple questions.
    We talked a lot about the Cooperative Threat Reduction and 
the reduction of nuclear weapons. How have we done on chemical 
and biological weapons? Particularly with Russia, the former 
Soviet Union, how have we done in that area?
    Mr. David. One of the major elements of the CTR program 
policy aspects of which my office directs for the Secretary is 
the destruction of chemical weapons in Russia. In that area we 
have built a chemical destruction facility--we have built part 
of a chemical destruction facility in Schuchye which will have 
the capability of destroying tens of thousands of rounds of the 
most lethal nerve agent known to man in recent years--
    Mr. Dicks. Where again was that?
    Mr. David. Schuchye--that is my word for the spelling bee, 
Schuchye--and the total cost is capped at $1.032 billion.
    There are two buildings. The Russians are building one. We 
are building the other. And many of the support facilities are 
even more cooperative than Russia and the United States, 
because some of the other support facilities in the vicinity 
are being paid for with the support from a variety of other 
countries.
    The status of the project right now is that the guts of the 
factory--the factories are there, but the machinery and the 
lines and so forth are not ready, are not installed yet.
    Mr. Dicks. When do you think the bill--when will you have 
your initial operating capability?
    Mr. David. I believe it could be 2008, but it is probably 
more likely 2009.
    Mr. Dicks. 2009, is that the--
    Mr. David. That is more realistic.
    Mr. Dicks. Your team is saying 2009.
    Mr. David. Yes, 2009.
    Mr. Dicks. So we haven't done anything at all in terms of 
disposing of chemical?
    Mr. David. Actual destruction?
    Mr. Dicks. Yes.
    Mr. David. Russia has disposed of almost none of its 
chemical weapons. I think Russia is up to 2 percent of its 
chemical weapons that it is obliged to destroy by 2012. Whereas 
the United States, for our own chemical weapons, have destroyed 
37 percent.
    Mr. Dicks. And how much are we funding here?
    Mr. David. Schuchye is $1.032 billion, I think.
    Mr. Dicks. And we are putting up all of that?
    Mr. David. Russia is putting up one of the two destruction 
buildings; we are putting up the other one.
    Mr. Dicks. Why don't you give us, for the record, what our 
piece is.
    Mr. David. I believe it is 1.032--
    Mr. Dicks. So that is our piece, all right; and then the 
Russians are separate.
    Mr. David. It is part of one facility, and it is going to 
all work together.
    Mr. Dicks. What about biological weapons? I am talking 
about Russia now.
    Mr. David. Biological weapons in Russia, there is very 
little we have been able to do in Russia.
    Mr. Dicks. Is that because they haven't admitted that they 
have such weapons?
    Mr. David. That is because we suspect that they may 
continue to have offensive biological programs and because we 
cannot reach agreement on the terms by which we would help 
secure more than the five facilities in Russia--biological 
research facilities in Russia that we do help to now secure.
    Mr. David. That's because we suspect that they may continue 
to have offensive biological programs, and because we cannot 
reach agreement on the terms by which we would help secure more 
than the five facilities in Russia--that we do help to now 
secure.
    Mr. Dicks. So these are two ongoing areas of concern?
    Mr. David. Yes.
    Mr. Dicks. We've done a lot with nuclear material and 
nuclear warheads. But we're just really basically getting 
started here on these other two issues?
    Mr. David. We're not even getting started on biological. 
We're basically--we have done a little bit. And ti doesn't look 
like, in the near future, we're doing very more much more. 
There doesn't seem to be disposition on Russia's part to want 
to do something cooperatively as they do with nuclear.
    Mr. Dicks. In the testimony, you talked about helping 
Russian scientists. How succesful have we been in that--of the 
people who have been involved with these programs?
    Mr. Paul. Sir, I want to get to that question, but I wanted 
to go back to Mr. David's--as you know, as I think I mentioned 
in my testimony, I alluded to it--we've, through our Biochem 
Redirect Program, I mentioned we've spent more than $80 million 
since '97 to engage scientists, engineers, technicians in 
collaborative research. So we're trying to redirect those 
activities. Now, I know you're trying to get a more specific 
weapons of concern. In the biological area, I just want to note 
that, in the program I also mention the BII. We're working 
closely with our other NDF program--that was mentioned--and 
with DOD. We're working to reduce the threat at the source to 
try and reconfigure some of the biological production 
facilities, including the Berdsk biological facility. We're 
beginning to get access now to some of these centers. We have 
still a big problem that Mr. David has alluded to. But with 
this program, with DOD support and others, we're beginning to 
get access. And we're trying to reconfigure these facilities, 
put them over to civilian use, and work with the scientists. So 
we should--
    Mr. Dicks. So these are two ongoing areas of concerns. We 
have got a lot with nuclear materials and nuclear warheads, but 
we are just really basically getting started here on these 
other two issues. We have done a little bit [and] it doesn't 
look like into the near future we are doing very much more. 
There doesn't seem to be a disposition on Russia's part to want 
to do something cooperatively.
    In the testimony you talked about helping Russian 
scientists. How successful have we been in that of the people 
that have been involved in these programs?
    Mr. Record. Sir, I would just like to--I want to get to 
that question, but I want to go back to Mr. David, that as you 
know, I think I mentioned in the testimony, I alluded to it. We 
have through our Bio-Chem Redirect Program, we spent more than 
50 million since 1997 to engage bioengineers, technicians in 
collaborative efforts. Now I know you are trying to get to more 
specific weapons of concern. In the biological area I want to 
note that in the program I also mentioned the DII, where we are 
working closely with other NDF programs. We are working to 
reduce the threat at the source to try and reconfigure some of 
the biological production facilities, including the Berdsk 
Biologics Facility. We are beginning to get access now to some 
of these centers. We still have now a big problem that Mr. 
David alluded to. But with this program with the DOD we are 
beginning to get access [and] we are trying to reconfigure 
these facilities, put them over to surveillance use and work 
with the scientists.
    Mr. Dicks. This is in Russia?
    Mr. Record. Yes. We can get you more information about that 
if you want.
    Mr. Dicks. That would be great.
    What about this--the scientists now. How many in all of 
these areas, relocating them. I know we have brought some of 
them to the United States.
    Mr. Record. I can't give you the figures on the relocation, 
but we have worked with I think over 60,000 scientists and 
technicians that have gotten this training and we spent I think 
over $269 million total in these efforts across the board.
    Mr. Dicks. This is the last point.
    Mr. David. Let me add one footnote to that. It is in part 
because of the difficulty we have had with biological programs 
in Russia that we have focused local programs and the DOD DTR 
program, the CTR part that DOD does, in some of the other 
countries in the former Soviet Union.
    Mr. Dicks. You say you have worked with 60,000. How many 
are out there? How many would be possible recruits for a 
program like this?
    Mr. Record. I don't think I have the number for you on 
that. I can give you the numbers. We have, as I say, two 
ongoing centers, [and] [over all] Project 1 Center in Moscow 
and a center in the Ukraine, as I mentioned, and has been in 
operation since the early 1990s. And those centers are also 
regional houses in other countries for the former Soviet Union 
as well. So I think we are coming up to 11 countries as well. I 
will be glad to give that to you.
    Mr. Dicks. Thank you.
    Mr. Linder. The gentleman from Massachusetts.
    Mr. Markey. Pakistan continues to be a real concern about 
nuclear nonproliferation, about the securing of nuclear 
materials inside of their country, the threat that al Qaeda 
could gain access to them. There is [and] agreement that the 
President wants the Congress to approve to have a nuclear 
cooperation agreement with India even though it is a 
nonsignatory on the Nonproliferation Treaty, even though it 
does not agree to ban the production of fissile material inside 
of their country and this, even though according to the 
yesterday's Indian newspapers, it will, according to their 
intelligence people, give them the capacity to make 50 nuclear 
warheads a year because it will free up their indigenous 
nuclear material for a bomb making program.
    What is your concern about the Pakistani response to this, 
the Pakistani response to us today? If this goes through, they 
are going to be forced once again to go back into the open 
market to obtain more fissile materials so they can match the 
Indian nuclear weapon expansion.
    Mr. Record. As you know, sir, we are going to start in the 
very near future a negotiation process with India, Pakistan and 
other countries in the conference's arm in Geneva to address 
the fissile material and the Fissile Material Treaty and that 
is animportant priority for the administration. I know the 
Indians are expressing their support for the investigations, 
and that is going to be animportant element in our process.
    I think, as you are probably familiar, the U.S. addressed 
this issue in the process of the discussions. The Indians were 
not willing to cease production of the fissile material but we 
are hopeful that we can, through this treaty process, come up 
with a treaty that would stop the production limit in this way.
    Mr. Markey. I understand what you are saying, but since the 
Indians are clearly not willing to accept that as a condition 
for this transfer of nuclear material to them anit will free up 
50 bombs worth of nuclear material to make more bombs in their 
country. Aren't you afraid that this will put A.Q. Khan--type 
scientists back on the road so there is not a gap that develops 
between the Pakistanis and the Indians? Isn't that really a 
real threat to our security because obviously it will have to 
be a clandestine program?
    Mr. Record. We have worked with both Pakistan and India to 
improve their nuclear export controls. We feel that--
    Mr. Markey. I am saying that since we are going to allow 
India to keep this dual program without full scope safeguards, 
why would the Pakistanis not empower A.Q. Khan?
    Mr. Record. As I alluded to earlier, we are fully working 
with Pakistan to do everything possible to take steps to deal 
with the A.Q. Khan network. That is anongoing network and we 
have got good cooperation right now with Pakistan.
    Mr. Markey. What I am saying is that the Pakistanis are 
saying you won't have cooperation if the India deal goes 
through and in my perspective it is kind of reckless to create 
a dual standard. Since neither country is a signatory to the 
nonproliferation treaty, one way that frees up 50 bombs worth 
of material a year, knowing that the other country has for 30 
years responded to whatever the other one does, why would we 
think it wouldn't happen again?
    Mr. Record. All I can say on your first point, sir, 
regarding Pakistan, we have had consultations with Pakistan and 
I have not heard that. I don't think any of my colleagues have 
heard that.
    Mr. Markey. That is very dangerous to me, since they have 
told me that, and I don't know why the experts inside of our 
government aren't hearing something that the Pakistani 
officials at the highest level are telling me. I can't believe 
you haven't heard that. So none of you have heard that from any 
Pakistani that you have spoken to?
    Mr. Record. We had consultations with Pakistan recently.
    Mr. Markey. But none of you have heard that they will 
respond and ensure that there is not a nuclear bomb gap that 
develops between India and Pakistan if this agreement goes 
through? Have any of you heard that from them? They are talking 
to me but not to you?
    Mr. David. I haven't spoken to Pakistanis and I have--
    Mr. Markey. You have not?
    Mr. David. No. But it seems logical, in that context, if 
India increased its nuclear warheads, Pakistan would want to do 
the same thing, it is probably logical. The advantage of the 
deal we are trying to forge with India is great. It brings 
India into the nonproliferation world.
    Mr. Markey. The problem is, Mr. David, that the President 
then flew to Pakistan the next day. Musharraf asked him will 
you give us the same deal. Bush, the President, said no, we 
won't give you the same deal. So the issue isn't India. The 
issue is Pakistan. Talk to me about Pakistan.
    Mr. David. Well, one thing that I can say about Pakistan 
that differentiates India from Pakistan is that Pakistan will 
not allow anyone, including the IAEA, which by the way through 
Director ElBaradei, supports the India--
    Mr. Markey. As you know, that is false though, Mr. David. 
As you know, the Indians are not going to allow any inspections 
of their nuclear military program.
    Mr. David. Of course.
    Mr. Markey. Only of their civilian program anneither will 
the Pakistanis.
    Mr. David. And the Pakistanis will not produce A.Q. Khan to 
speak to [anyone] about the proliferation that it has been a 
part of. That is a very good sign of Pakistan's attitude toward 
coming into a nonproliferation world and there is much to be 
gained by India coming into a nonproliferation world. There is 
much to be gained by India coming into a nonproliferation world 
and supporting us and working with us--
    Mr. Markey. The issue is not India. The issue is Pakistan. 
If Pakistan is saying that they cannot allow this gap to 
develop, that puts them back into the open market again. I 
mean, what is the consequence? Have you thought about the next 
step?
    Mr. David. As Mr. Record has said, we have hopes and some 
expectations that India will not produce, be producing many, 
many weapons to--
    Mr. Markey. Their own experts in yesterday's Indian 
newspapers say this will give them the capacity to build 50 
additional nuclear weapons a year.
    Mr. David. I haven't read that paper and I read a lot of 
newspapers and read a lot of things.
    Mr. Markey. Obviously the reason they are putting the 
nuclear reactor and these other reactors aside is they want to 
continue to maintain a nuclear weapons construction program. 
Otherwise, they would have put them all under inspection, and 
they won't agree to a fissile material ban.
    Mr. Record. They have indicated they want to maintain the 
credible minimum strategic deterrent. Exactly how many weapons, 
I don't know. We would have to get into a different discussion 
on that. But yes, they have indicated--
    Mr. Markey. They already have 40 to 50 nuclear weapons. So 
if they want to go to 200 or 300, is there any reason to 
believe that the Pakistanis won't as well, Mr. Record?
    Mr. Record. I have no idea.
    Mr. Markey. I mean from your own personal experience over 
the last 30 years, do you believe there is a reason to believe 
that Pakistan won't respond?
    Mr. Record. Pakistan is also very desirous of keeping a 
minimal strategic deterrent. They have told us--
    Mr. Markey. So minimal today.
    Mr. Record. I don't know how this translates into numbers.
    Mr. Markey. They are going to be looking for parity with 
India, don't you think, Since that is what we are talking 
about, in terms of the weapons?
    Mr. Record. Mr. Congressman, I have no idea. I don't know 
what the basis of that article is, what the basis of that 
information is in that article. I see your article but I don't 
really have any idea about how many weapons that India is 
thinking of.
    Mr. Markey. The point is, Mr. Record, if we are going to 
supply all of the uranium that they will need for their 
civilian program, that will free up all of their indigenous 
uranium and plutonium for their weapons program. That is the 
advantage for the--if you are A.Q. Khan, you are sitting there 
and you have been tasked since 1974 since the Indian explosion 
to have a clandestine nuclear program anwe haven't arrested 
him, we haven't brought him before the World Court, we haven't 
put any pressure on Musharraf to the World Court to really 
bring this guy to justice, what makes you believe that anything 
is going to change and he is not or his weapons aren't going to 
escalate once again?
    Mr. Record. To reiterate on that last point, we have 
extensive knowledge of that network anwe continue to learn more 
all the time.
    Mr. Markey. I am afraid you are going to have to learn a 
lot more about it if this Indian program goes through because 
the Pakistanis are not going to stand still and allow the 
Indians to stand still and gain an exponential advantage over 
them.
    Mr. Record. In terms of your India-Pakistan focus of your 
questions is that India and Pakistan have continued to make 
progress in their bilateral relationship.
    Mr. Markey. This is going to destabilize it. One country is 
signing an agreement that is going to give them American and 
European nuclear materials that frees up its weapons site and 
the Pakistanis are going to be frozen. They won't stay frozen. 
Their whole history for 30 years, as you remember when the 
nuclear explosion went off in 1974, the coded cable that went 
back to the Indian presidential headquarters was the Buddha is 
smiling, but the next day the leader of Pakistan said if our 
people have to eat grass and leaves for a generation we too 
will have a nuclear weapon. And I don't know why you think this 
agreement--
    Mr. Record. There is a lot that has happened since that 
time.
    Mr. Linder. We have votes, two or three votes. I want to 
thank this panel. Appreciate, thank you for being here to help 
us. anwe will recess upon the call of the Chair.
    The next panel we will take up as soon as the votes are 
completed.
    [Recess.]
    Mr. Linder. The hearing will be back in order. Our second 
panel, thank you for your patience. From time to time we have 
to vote here, and we should be all right for the next hour, 
hour and a half.
    The second panel consists of Dr. Igor Khripunov, the 
Associate Director for the Center for International Trade and 
Security at the University of Georgia. Dr. Khripunov is an 
expert on Russian nuclear and biological security and is well 
known for his work on the human factor of implementation.
    Dr. David Franz is Vice President and Chief Biological 
Scientist at the Midwest Research Institute. Dr. Franz served 
in the U.S. Army in the Medical Research and Material Command 
for 23 years. He is currently a member of the National Academy 
of Sciences Committee on International Security, and Mr. Franz 
will testify on the role in reducing biological threats.
    Let me remind the witnesses that we would like to keep your 
summary to 5 minutes. Your written statement will be made part 
of the record without objection.
    Dr. Khripunov, you may go.


          STATEMENTS OF DR. IGOR KHRIPUNOV, ASSOCIATE 
         DIRECTOR, CENTER FOR INTERNATIONAL TRADE AND 
                SECURITY, UNIVERSITY OF GEORGIA

    Mr. Khripunov. Thank you, Mr. Chairman. I have been with 
the University of Georgia for 14 years and as a fellow 
Georgian, I would like to extend warm greetings to you as 
another Georgian here before me. Yes, it was very warm 
yesterday. As I was leaving Atlanta it was 89 degrees 
Fahrenheit.
    It is a great honor and privilege to share my thoughts and 
findings of my research, and the theme of my presentation is 
mostly about people. The message to the distinguished members 
of the subcommittee is that a security conscious work force 
should be the first line of defense against catastrophic 
terrorism. Indeed, the new challengers and threats in the wake 
of the September 11th tragic event have dramatically enhanced 
the role of the human factor in protecting sensitive 
facilities, associated infrastructure and materials at the 
source.
    Why? The problem is that in the asymmetric warfare that has 
become the buzzword as our adversaries move are increasingly 
characterized as highly unpredictable, nontraditional, 
indiscriminate in the use of any weapons and technologies, 
disregarding the value of their own human lives and relying on 
the support of a certain portion of the population and insider 
collaboration.
    This is why this new challenge requires a qualitatively 
different response from us. On our side of the asymmetric 
warfare we are developing dangerous gaps and vulnerabilities. 
There is a need to come up with a state of the art, multi-
disciplinary methodology to prepare the workforce for actual 
and potential threats.
    The bottom line is in the new circumstances more than ever 
security equipment regulations and procedures are as good as 
operators, the people involved.
    What can we do? If we hope to improve the human factor, the 
so-called security culture, a cause that encompasses a set of 
managerial, organizational, motivational and other 
arrangements. Security culture can be defined as a work 
environment where anethic of security permeates the entire 
organization and not only guards. People's behavior focuses on 
preventing malicious acts through critical self-assessment and 
aggressive efforts to identify management security, safety and 
other problems before they became dangerous vulnerabilities.
    One important advantage of security culture is that it 
enables a person to respond to known and unknown security risks 
out of careful and nurtured proactive habit rather than 
improvised effort that can deal with security culture within 
our organization. And they are facility leadership without the 
interest on the part of the leaders in enhancing security, 
security culture can not be achieved.
    Second, proactive policies and procedures generated by top 
managers.
    Three, personal performance, and one important trait of 
this personal performance is questioning attitude and 
whistleblowing.
    And four, learning and professional improvement. You cannot 
impose security culture. You can train people to be security 
conscious, and as they improve their qualities, you know, the 
progress is achieved.
    The basics of security culture as a uniform and overarching 
strategy can and must be applied to a number of sensitive 
industries. In turn, these industries will build upon them what 
will be specifically required by their unique features and 
characteristics. For example, being less physically and 
technologically protected in the nuclear industry. Bio, 
pharmaceutical and chemical facilities and associated 
infrastructures are much more dependent on the quality of their 
human factor; in other words, skills, motivation, values and 
performance of the work force.
    On the other hand, security culture must be promoted 
internationally because given the global scale of terrorism, we 
in the need are as strong as the weakest link in facility and 
material protection elsewhere.
    International security culture is important for corporation 
assistance and comparison. A valuable pioneering effort to 
develop a concept of nuclear security culture is on the way at 
the counsel of a doting agency. This concept has a good chance 
to be finalized and released before the end of this year, and I 
have been involved in this process from the very beginning.
    Another important landmark is a Bratislava statement on 
nuclear security culture that has been referred to by previous 
speakers. It has the whole paragraph about nuclear security 
culture, and I am very happy to say that our report regarding 
nuclear security culture in Russia was released 3 months before 
the Bratislava statement, and I want to believe that it 
provided a clue to those who worked on the Bratislava 
statement, and I will be happy to leave this report with the 
secretary of the subcommittee.
    What is important about security culture is that security 
culture is a prerequisite for sustainability. As we provide 
more equipment, fences and detectors you know to countries like 
Russia, Ukraine and others, without people having security 
culture it is very difficult to sustain this momentum, you 
know, after we phase out our active involvement and assistance.
    But several proposals that I would like to make, and I hope 
you bear with me in order to promote security culture across 
the board.
    First of all, establish a multi-disciplinary partnership 
between main stakeholders, regulators, industry anacademia. And 
I think problem countries should be involved in this 
international endeavor. My center is developing a dialogue with 
the American Society For Industrial Security hoping that we may 
contribute jointly in this interdisciplinary effort.
    Two, encourage technical universities to introduce elements 
of security culture in current and future courses.
    Three, accelerate ratification and coming into force of the 
amendments of the convention of physical protection of nuclear 
material. Raising the concept to the level of the international 
obligation would pressure some countries anmake them more 
responsive and accountable.
    Four, explore options for expanding the mandate of the 
World Health Organization, to include the development and 
promotion of biosecurity culture, drawing as much as reasonably 
possible on the experience of the IAEA.
    And finally, five, include in the agenda of the second 
review conference of the Chemical Weapons Convention an item 
that would authorize the organization for the prohibition for 
chemical weapons for--to initiate work that was and will be 
done by the IAEA.
    Talking about Russia, you know, we need to continue our 
work bilaterally, but international agreements, multilateral 
agreements will be a powerful vehicle to force Russia to 
embrace security culture.
    And one final observation. We cannot build a water tight 
wall to prevent some deadly materials from falling into the 
hands of terrorists. For example, weapon grade material is more 
controllable than components of radiological terrorism; in 
other words, dirty bombs and some pathogens. Hence, we need to 
be candid with the public and condition it to a higher 
probability of attack from the sources.
    Any new effort to prevent the proliferation at the source 
must be combined with efforts to prepare ordinary citizens for 
acts of WMD terrorism that are preventable. This human factor-
based, balanced formula must include a strategy to build up a 
culture of resilience among the public as a counterpart to the 
security culture at the source.
    Resilient people bend rather than break under stressful 
condition and they return to the acceptable level of their 
normal psychological and social routine following misfortune. 
These combined efforts focusing on the people and their mindset 
help us fortify ourselves for the long war that confronts us.
    Thank you very much.
    [The statement of Mr. Khripunov follows:]

                Prepared Statement of Dr. Igor Khripunov

    Thank you, Mr. Chairman and other distinguished members of the 
Subcommittee. I am pleased to have this opportunity to describe my work 
in the area of the "human factor," which is becoming increasingly 
important as we attempt to implement effective threat-reduction 
programs. Simply put, the human factor emphasizes that the skill of 
security personnel are the critical element in security. Equipment is 
not enough.
    In the new strategic environment of the 21st century, "asymmetric 
warfare" has become a common buzzword. For those entrusted with 
protecting critical infrastructure and materials at the source, 
asymmetric threats imply attempts by adversaries to circumvent or 
undermine our strengths while exploiting our weaknesses using methods 
that differ significantly from traditional methods of operation. 
Asymmetric attacks employ innovative, nontraditional tactics, weapons, 
and technologies; thus they demand a spectrum of protective strategies 
on our part.
    But no strategy, however well-conceived, can prepare the staffs of 
sensitive sites for every contingency. More than ever before, the 
protective force will depend on such professional skills and traits as 
situational awareness, strength of mind, mental readiness, boldness, 
self-reliance, intuition, and a willingness to take risks. In the kind 
of confrontations we envision, these characteristics are imperative. 
They will help security forces at sites housing lethal materials expect 
the unexpected and react adequately under conditions of extreme stress 
and uncertainty.

Security Culture
    The concept of the human factor originated with a simple insight: 
that the best equipment in the world is no better than its operator. 
Nor can the best written directives in the world compensate for apathy 
or technical incompetence in the workforce. These material arrangements 
have little effect without trained, motivated human beings to make use 
of them. A vehicle to improve the human factor is "security culture," a 
concept that encompasses a set of managerial, organizational, and other 
arrangements. When we set out to improve security culture within an 
organization active in the nuclear or biotechnology complex, we set out 
to cultivate habits, attitudes, and traditions that favor security over 
lesser concerns. Security becomes second nature for personnel within 
such organizations.
    This type of organizational culture is tightly based on the concept 
of nuclear security which is defined by the International Atomic Energy 
Agency (IAEA) as the prevention and detection of, and response to, 
theft, sabotage, unauthorized access, illegal transfer or other 
malicious acts involving nuclear material, other radioactive substances 
or their associated facilities. This definition has important and 
extensive overlaps with chemical and bio security.
    On our side of the asymmetrical-warfare equation, where dangerous 
gaps and vulnerabilities have become apparent, we can come up with a 
state-of-the-art multidisciplinary methodology to prepare the workforce 
for both actual and potential threats. Hence, security culture connotes 
not only the technical proficiency of the people assigned security-
related duties, but also their willingness and motivation to follow 
established procedures, comply with regulations, and take the 
initiative when unforeseen circumstances arise-as they will, given the 
limits on human foresight and the inventiveness of the adversaries we 
face today.
    In this sense, then, a good security culture can be defined as a 
work environment where an ethic of security permeates the organization. 
People's behavior focuses on preventing malicious acts through critical 
self-assessment, aggressive efforts to identify management and tactical 
problems, and appropriate, timely, and effective resolution of problems 
before they become crises. Security culture enables a person to respond 
to known and unknown security risks out of carefully nurtured and 
proactive habit rather than improvised effort.
    There are two categories of unexpected events of which we need to 
be aware and for which security culture may be an effective tool. 
First, a known danger whose timing or magnitude cannot be predicted has 
been dubbed a "known unknown." Second, there are other dangers called 
"unknown unknowns." Nobody is aware of these. Nobody will foresee them 
or take countermeasures until they transpire. Crashing fuel-filled 
passenger jets into the World Trade Center towers on September 11, 2001 
represented a striking example of an unknown unknown.
    Every organization has a security culture. (Incidentally, the same 
could be said of safety, quality, and other fields of endeavor.) The 
really important question is: Is the security culture healthy? Is it 
what management needs it to be, and is it improving, decaying, or 
remaining static? How effectively does it counteract security breaches 
and insider threats? How can it be improved?
    As we survey the world, we find numerous examples showing that a 
group of unscrupulous employees-typically managers colluding with 
lower-ranking technicians-can divert and steal valuable, sensitive, and 
dangerous materials from the workplace despite seemingly airtight 
security and anti-theft precautions. One representative case involved a 
criminal operation at Elektrokhimpribor, a top-secret nuclear-weapons 
facility in Russia's closed city of Lesnoy. Thefts of rare and 
expensive radioactive isotopes went on unchecked for several years 
because employees from all levels at the facility-ranging from rank-
and-file workers to top management-connived among themselves, abetted 
by senior officials from the Ministry of Atomic Energy (the federal 
agency charged with overseeing security at such sites).
    Under a different set of circumstances in Pakistan, had there been 
a chance to promote security culture values throughout its national 
nuclear sector, some members of the workforce might have found A.Q. 
Khan's shady nuclear transactions with proliferant entities 
objectionable and inconsistent with world standards, prompting them to 
blow a whistle. Ambassador Linton Brooks, administrator of the National 
Nuclear Security Administration, delivered a presentation at the 
Congressional Breakfast Club on May 19, 2006 in which he acknowledged 
that "every security system ultimately depends on the people operating 
it-the so-called `human factor.' Motivated by greed, coercion, or debt, 
facility insiders may successfully divert nuclear materials."
    Nor is the United States immune to faults in security culture that 
can render nuclear facilities vulnerable to terrorist and other 
malicious acts. On August 29, 2004, CBS News reported that officials 
from the U.S. Department of Energy had conducted an surprise inspection 
of security guards at a nuclear-weapons plant in Colorado, finding the 
facility virtually unprotected because the vast majority of the guards 
were watching the Super Bowl. The Department of Energy admitted that 
guard forces had recently left the front gates at other nuclear 
facilities wide open, and that they had failed repeatedly to respond to 
emergency alarms in maximum-security areas. Some were actually caught 
sleeping on the job.

Sectoral Diversity
    A concept of security culture originated within the IAEA and the 
nuclear sector. Twelve "fundamental principles" of nuclear security 
were developed immediately after the 9/11 attacks and are now codified 
in a series of (as-yet unratified) amendments to the 1980 Convention on 
the Physical Protection of Nuclear Material. The basic concept and 
methodology of security culture continues to undergo refinement by the 
IAEA Secretariat, but it can be usefully applied to other sensitive 
areas, such as the biological and chemical sectors, in which breaches 
of security may hand deadly materials to terrorists, posing a threat to 
the public.
    Nuclear. Emerging security challenges have made it obvious that the 
scope of nuclear security and the associated culture need to extend 
beyond the traditional task of protecting weapons-usable material. This 
new, more comprehensive security culture must cover radioactive sources 
and spent nuclear fuel, among other hazardous radiological substances, 
while encompassing a wide variety of installations and activities. It 
must account not only for power and research reactors and related fuel-
cycle facilities, but also for waste storage sites that serve research, 
academic, agricultural, and industrial installations.
    Of special significance is nuclear power infrastructure. An attack 
on a nuclear power site would likely lead to serious consequences, even 
if little or no damage were done to the plant itself or to related 
structures. Public fears of radiation, combined with a possible massive 
blackout and other aggravating factors, could give rise to significant 
distress and panic. In other words, even a marginally successful 
terrorist attack on nuclear plant infrastructure could easily bring 
about a systemic disaster, characterized by a series of interconnected 
and disruptive events affecting vital societal institutions.
    In July 2005, the parties to the Convention on the Physical 
Protection of Nuclear Material approved a series of amendments to the 
Convention. Among other things, the amendments raise the 12 fundamental 
principles of nuclear security to the level of binding obligations 
under international law. Although security culture is listed alongside 
principles such as threat evaluation, a graded approach, defense-in-
depth, and quality assurance-implying coequal status-it is clear that 
culture stands above them all. It is an overarching and integrating 
concept without which none of the other fundamental principles can be 
successfully implemented.
    The amendments make the fundamental principles of nuclear security 
universal and binding, and they give the international community a way 
to hold individual governments accountable for their performance in 
this critical area. In this light, it is disturbing that only three 
countries (the Seychelles, Turkmenistan, and Bulgaria) have ratified 
the amendments almost a year after they were signed. It is clearly in 
the interest of the United States to invest time and resources in 
efforts to accelerate the ratification process, both in Congress and 
abroad, helping the amendments to the Convention enter into force at an 
early date.
    Chemical. Among the threats to the chemical industry and to 
chemical-weapons storage/destruction facilities are deliberate attempts 
to release toxic materials while they are in transit to or from points 
of storage or use; theft or diversion of chemical weapons or toxic 
materials for terrorist acts elsewhere; and sabotage that releases 
toxic contaminants, in effect using chemical installations as weapons 
prepositioned in urban areas. A multitude of industrial chemicals, 
though not as deadly as chemical-warfare agents, could be released in 
massive quantities, inflicting lethal effects despite their lower 
toxicity.
    A classified study conducted by the U.S. Army Surgeon General, 
dated October 29, 2001, projected that a terrorist attack dispersing 
toxic chemicals in a densely populated area could injure or kill as 
many as 2.4 million people. (The Army later clarified its findings, 
noting that the estimate of 2.4 million casualties referred to the 
number of people who might request medical treatment following a large-
scale release from a chemical manufacturing plant, in a densely 
populated area, under ideal weather conditions that lent themselves to 
maximum exposure.) If nothing else, however, this attests to the 
psychological impact of chemical incidents, which would exacerbate the 
actual, measurable damage to infrastructure and human health.
    What kind of substances might be released? Chlorine and phosgene 
are two industrial chemicals commonly transported by road and rail. 
They are also chemical-warfare agents, having seen widespread use in 
World War I. Rupturing the containers in which they are transported 
could disseminate these gases in incapacitating or lethal amounts. 
Organophosphate pesticides such as parathion fall into the same class 
as nerve agents. Although these pesticides are far less toxic than 
military-grade nerve agents, their effects and medical treatments are 
the same. In April 2005, Dr. Richard Falkenrath, President Bush's 
deputy homeland security advisor, told the Senate Committee on Homeland 
Security and Governmental Affairs that, of all the capabilities 
available to terrorists in the United States today, one stands alone as 
uniquely deadly, pervasive, and susceptible to terrorist use: 
industrial chemicals such as chlorine, ammonia, phosgene, methyl 
bromide, hydrochloric acid, and various other acids.
    In contrast to the nuclear sector, which is made up of relatively 
few facilities equipped with costly and sophisticated protective 
systems, sensitive chemical plants number in the thousands and, 
generally speaking, are only lightly protected. To an even greater 
degree than in the nuclear industry, accordingly, physical protection 
in the chemical industry depends not so much on the design and 
condition of installed security equipment as on the attitudes, 
behavior, and motivation of the entire workforce. In the long run, 
human performance, influenced by prevailing standards of security 
culture, determines whether a chemical security regime succeeds or 
fails. The sheer scale of the chemical industry increasingly makes 
security culture, including the vigilance of the workforce, a key 
element in protecting hazardous facilities and chemicals.
    A recently released report from UN Secretary General Kofi Annan, 
titled Uniting Against Terrorism: Recommendations for a Global Counter-
Terrorism Strategy (A/60/825, April 27, 2006) appropriately emphasizes 
that:

        To prevent terrorists from acquiring chemical materials, States 
        should ensure that security at chemical plants is kept to the 
        highest standard, and I urge the relevant United Nations 
        entities to provide assistance where needed. A mechanism should 
        also be developed to allow the Organization for the Prohibition 
        of Chemical Weapons (OPCW), in cooperation with other relevant 
        United Nations actors, to provide necessary assistance and 
        coordinate the response and relief operations in case of a 
        chemical weapon attack or the release of chemical agents.

    Indeed, the OPCW, a worldwide authority on chemical weapons, is 
best equipped to become a clearinghouse and coordinating center for 
chemical security culture. Its expertise, knowledge, and equipment can 
be put to use preventing, combating, and responding to chemical 
terrorism. The Chemical Weapons Convention, the document under which 
the OPCW operates, clearly provides the organization with a mandate not 
only to deal with chemical weapons narrowly construed, but also to 
foster security in the chemical sectors of member states.
    Biological. At biotechnology labs and pharmaceutical plants, the 
role of the human factor is even greater than in the nuclear and 
chemical complexes because of the ease with which an unscrupulous staff 
member could divert pathogen samples from their proper uses. Preventing 
bioterrorism requires innovative solutions specific to the nature of 
the threat. Biotechnology is not like nuclear technology. Soon, tens of 
thousands of laboratories worldwide will be operating in this multi-
billion-dollar industry. Even students working in small laboratories 
will be able to carry out gene manipulation. A minute amount of 
pathogens can be used to create a sizable stock of weapons-usable 
material. The approach to fighting the abuse of biotechnology for 
terrorist purposes will have more in common with measures against 
cyber-crime than with our work to control nuclear proliferation. As a 
result, biosecurity culture is substantively and structurally different 
from security culture in the nuclear and chemical complexes.
    There is a compelling need to forge a voluntary code of conduct for 
the biotech industry, governed by the principles of risk management, 
ethical values, and strict compliance. Personnel accountability is a 
major trait to be nurtured at these institutions. Members of the 
workforce must always bear in mind the potential consequences of the 
firm's research, recognizing the repercussions that would accrue were 
their scientific endeavors misused. Because biosecurity depends so 
heavily on vigilance and on expecting the unexpected, top leaders must 
encourage their workforces to be observant and to question small 
discrepancies as a matter of routine. Effective biosecurity would 
include an oversight system for (a) the physical protection of 
dangerous pathogens and dual-use technologies from theft, illicit sale 
or transfer, or accidental release; (b) the implementation of security 
regulations; (c) safety training; (d) facility licensing; and (e) 
personnel vetting.
    Here again, the human factor is the key to success in biosecurity 
culture, even though it may require more effort and time to nurture. 
Since the dividing line between biological weapons and naturally 
occurring infectious diseases is blurry, the United States may wish to 
turn to the World Health Organization (WHO), encouraging that body to 
strengthen and diversify its involvement in this area. This would make 
the WHO the biosecurity counterpart to the IAEA and the OPCW. It would 
also enhance preparations for natural outbreaks such as bird flu. It 
will be necessary to focus on raising standards of biosecurity culture, 
both to protect the general public from naturally occurring disease and 
to shield our citizens against malicious acts.

Building Security Culture
    Cultures are based on a set of shared, underlying assumptions about 
reality. Practically speaking, this means that an organization instills 
tangible behaviors in the workforce that derive from what the 
organization`s leaders assume should be most important. Even if the 
leadership makes the right assumptions and sets the right goals, 
however, culture will atrophy unless the leadership works actively and 
continuously to promote them throughout the organization. Without 
proactive leadership, the staff will simply form other assumptions 
based on individual staff members' personal experiences, or even on 
their whims. Top managers need to lead the way in forging the 
appropriate pattern of ideas. Often underlying assumptions are 
unconsciously held and never discussed in the daily course of business. 
They simply become "the way we do things." But a culture needs 
conscious attention if it is to thrive.
    A good security culture is founded on a healthy respect for the 
threat. From the most senior leader down to the lowliest technician, 
the staff needs to understand that security measures truly matter. This 
underlying conviction then permeates the way people work, and it drives 
their behavior under normal and abnormal conditions. In a facility that 
enjoys a healthy security culture, personnel typically display a deep-
rooted belief that there are credible insider and outsider threats, 
including theft, sabotage, unauthorized access, illegal transfer, and 
other malicious acts, and that it is their duty to counteract those 
threats. A sense of mission goes a long way toward fissile-material 
security, as well as the security of pathogens and toxic chemicals.
    The next level in implanting healthy assumptions is to determine 
basic principles and values conducive to the behaviors and physical 
arrangements that make up a vibrant security culture. The necessary 
principles and values include honesty, integrity, and a sense of 
responsibility; a commitment to keeping equipment in good working 
order; obedience to procedure; a commitment to learning and process 
improvement; and effective leadership throughout the organizational 
hierarchy. These traits contribute to the core of security culture.
    The core consists of four major elements: (1) facility leadership, 
(2) proactive policies and procedures, (3) personnel performance, and 
(4) learning and professional improvement. (See Figure 1, next page.) 
But the main element within the facility is the performance of leaders. 
Top managers are responsible for developing and implementing a specific 
set of policies and procedures that bias the behavior of their 
subordinates in favor of security. Of particular importance to the core 
is a manager's emphasis on clear roles and responsibilities, visible 
security policies, cyber-protection, contingency plans and drills, and 
personal accountability. Continuous training is the primary tool to get 
the required results.
    These desired traits are not, of course, confined to security; they 
are mainstays of healthy management practices. Conversely, a poorly 
managed work environment in which these attributes are lacking will be 
indifferent to efforts to achieve a high standard of security culture. 
Accordingly, any campaign to promote nuclear security culture-whether 
nationally sponsored or funded primarily through international 
assistance-should seek to better the overall professional culture.
    It is in U.S. national interest to take the lead in supporting and 
promoting security culture not only domestically but also 
internationally, making its basic standards universally understood, 
regardless of differing socioeconomic and political conditions from 
country to country. A uniform understanding of clearly defined 
standards is important for international exchanges, evaluation, and 
comparison. A good example of such highly beneficial outreach is the 
U.S.-Russian program on security culture currently implemented under 
the bilateral Statement on Nuclear Security Cooperation signed by 
Presidents George W. Bush and Vladimir Putin at their summit meeting in 
Bratislava, Slovak Republic, in February 2005. Ideally, this must serve 
as a powerful tool for shaping the mindset of nuclear workforce in 
Russia and pave the way for similar efforts in other countries.
    Indeed, there is an urgent need to engage, either bilaterally or 
through the IAEA, a specific group of countries whose history, 
traditions, ongoing economic developments, and other traits complicate 
their ability to meet high standards of security culture. This group 
includes transitional societies, countries whose nuclear programs 
lacked or still lack transparency, countries instituting nuclear power 
and research programs from scratch, or where nuclear industry is 
undergoing ownership reform. For example, countries professing a desire 
to benefit from nuclear power generation, such as Turkey, Vietnam, 
Indonesia and Nigeria, need to start training a security-conscious 
workforce even before they design and build appropriate physical 
infrastructure.


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]



Beyond the Source
    Security culture is no panacea. It cannot credibly prevent the 
whole spectrum of terrorist attacks involving weapons of mass 
destruction (WMD). Though we stand a reasonably good chance of denying 
terrorists access to nuclear weapons and to the material and 
technologies they would need to build an improvised nuclear device 
(IND), most components for radiological terrorism or bioterrorist 
attacks are easily available and technologically simple to use. They 
stand out among the WMD tools available to terrorists both because of 
their ready availability and because of their unique capacity to 
inflict far-reaching physiological and psychological damage.
    Compared to nuclear weapons and INDs, radiological weapons require 
little technical sophistication. The probability that such weapons will 
be used is on the rise: Conventional terrorism seems to be gradually 
losing its attractiveness to perpetrators as public authorities take 
defensive precautions and ordinary citizens demonstrate more resilience 
in the face of its disruptive effects. From a symbolic standpoint, 
moreover, al Qaeda and its ilk would be tempted to use radiological 
weapons because they resemble nuclear weapons, thus conferring prestige 
and an image of prowess on their efforts and heightening anxieties 
among the populace targeted for attack. Similarly, acts of bioterrorism 
can be prevented and mitigated only in a limited way, but they could 
have long-lasting and indiscriminate effects, raising the specter of a 
global pandemic.
    Any new efforts to prevent the proliferation of weapons-usable 
materials at the source must be combined with efforts to prepare 
ordinary citizens for acts of WMD terrorism that are less preventable. 
This balanced formula must include a strategy to build up a culture of 
resilience among the public, which after all is a primary target for 
terrorists. Resilience refers to the ability to handle disruptive 
challenges, characterized as emergencies that can result in crisis. 
Accordingly, resilience culture is an amalgam of beliefs, attitudes, 
approaches, behaviors, and psychology that helps people fare better 
during adversity. Resilient people bend rather than break under 
stressful conditions, and they return to some semblance of their normal 
psychological and social routine following misfortune.
    The challenge of terrorism demands a global response, as 
compassionate to victims as it is resolute in seeking out and defeating 
perpetrators. Security culture at the source, complemented by public 
resilience, offers a foundation for a partnership and strategy that 
will help deny terrorists their goals. Our efforts in this area will 
help us fortify ourselves for the long war that confronts us.

    Mr. Linder. Thank you, Dr. Khripunov.
    Mr. Franz.

    STATEMENT OF DR. DAVID FRANZ, VICE PRESIDENT AND CHIEF 
        BIOLOGICAL SCIENTIST, MIDWEST RESEARCH INSTITUTE

    Mr. Franz. Mr. Chairman, Congressman Langevin, it is anon 
honor to appear before you today to address the threats at the 
source.
    I believe there are no perfect technical solutions or 
combination of solutions to the threat of bioterrorism to our 
Nation. The microbes needed are too readily available in nature 
and the tools needed to transform microbes into weapons are 
also too accessible to allow us to control their illicit use. 
The technologies, the facilities and the humans involved are 
too widespread and of dual use for our intelligence community 
to discover their malevolent use. As the technical barriers to 
the abuse of biology continue to fall, intent to harm becomes 
more important in the calculous.
    At this time in our history, as was just mentioned, we face 
three trends that synergize to make protecting our citizens 
from biological terrorism extremely difficult: One, it is a 
smaller world; two, we are in a biotechnological revolution; 
and three, we see a prevalence of asymmetry in warfare. Vast 
oceans and friendly neighbors are not enough to protect us 
today. Until we address intent to harm with biology and the 
factors which motivate it, we have not done enough for our 
citizens.
    The language of science is common and powerful. I believe 
that working directly with scientists internationally is 
integral to defense of the homeland. Doing this has numerous 
benefits. First, it builds understanding in the very community 
that has the tools to do harm. Second, it provides some 
transparency, not total transparency but some and a frame of 
reference regarding legitimate activities that are going on in 
biotechnology around the world. And three, it offers the 
opportunity to build some trust between and among scientific 
collaborators worldwide.
    All of these outcomes reduce the likelihood of 
proliferation. Although we, the U.S. government, as we heard in 
the previous hearing, have been engaging foreign biological 
scientists, particularly in Russia and Eurasia, since the early 
1990s, I don't believe we always grasp the importance and the 
value of the process that we are involved in. My personal 
experiences as a scientist-soldier and my active involvement in 
biological counterproliferation and nonproliferation programs 
have allowed me to make the observations listed more fully in 
my written statement.
    To summarize, however, just a few points regarding the 
biological threat.
    History has demonstrated that adequate transparency cannot 
be legislated, forced or enforced, or compliance assured.
    Secondly, although not always possible, a most useful 
approach in engagement has been to work in true collaborative 
relationships on mutually beneficial projects. Difficult 
technical problems related to biological safety, biological 
security and public health, such as the avian flu threat that 
we face today, are excellent targets for such collaboration.
    I believe that the process is often as important as the 
product that we look for in these programs. Working together on 
a scientific project and failing is at times more beneficial 
than succeeding alone.
    In the end success I believe will not be related to dollars 
spent on fences and locks and alarm systems to protect our 
microbes. It will be related to communication and trust built 
between humans.
    The metrics are very difficult to apply, but we must stay 
engaged. We must trust and where we can, we must verify as 
well.
    And the fourth point, this is a dangerous world. What I am 
talking about are soft programs. They can't replace military 
strength and intelligence and other components of our hard 
power. But I believe these soft programs are complementary and 
actually make our hard power more effective. It is very 
important, I believe, that we find balance between this hard 
and soft power.
    As just one example in closing, I have had the opportunity 
to travel to Russia two or three times per year since 1993, 
first under the trilateral negotiations. When we started those 
visits and the negotiation to establish mill to mill agreements 
working across conference tables and taking part in rigid 
inspections, which we called visits but they were more like 
inspections, the tone was contentious and the progress was 
slow. Next under the Nunn-Lugar program we got American 
scientists involved as collaborators and saw the power of 
science as a common language.
    Earlier this month, actually just 2 weeks ago, in Moscow 
our National Academy Committee on International Security anArms 
Control met with our biological counterparts from the Russian 
Academy of Sciences. For the first time in all these years I 
saw a glimpse of a tipping point in the way our collaborative 
work is approached. At least I saw both a willingness and now I 
believe a capability, a financial capability as well, on the 
Russian side to transform our relationship from one of 
patronage, which is what it has been, to partnership, and I 
think this is critically important.
    The Russian example that I give is dated somewhat in this 
age of bioterrorism, and actually I think the Russian example I 
think may be the easy one. I think we are going to face more 
difficult ones. But I believe it demonstrates the importance of 
using our scientific soft power at the source of terror along 
with the hard power. Finding balance is always difficult, but 
it is so necessary.
    Again, I appreciate the opportunity to present this 
information before the committee, and I shall be happy to 
answer your questions.
    [The statement of Dr. Franz follows:]

                 Prepared Statement of Dr. David Franz

    Mr. Chairman, distinguished Members, it is an honor to appear 
before you today to address issues related to reducing proliferation of 
biological weapons. I am currently Vice President & Chief Biological 
Scientist at the Midwest Research Institute of Kansas City, based in 
Frederick, MD; Director of the National Agriculture Biosecurity Center 
at Kansas State University and Senior Fellow for Bioterrorism at the 
Combating Terrorism Center at the U.S. Military Academy in West Point. 
I served on active duty in the U.S. Army from 1971 to 1998, 24 of those 
years in the U.S. Army Medical Research and Materiel Command. I served 
for 11 years at the U.S. Army Medical Research Institute of Infectious 
Disease, which I commanded before my retirement. During my tour of duty 
at USAMRIID, I served as Chief Inspector on three UN Special Commission 
biological warfare missions to Iraq and as technical expert on the 
Trilateral (US-UK-Russia) Agreement visits and negotiations with 
Russia. I have worked under the auspices of the "Nunn-Lugar" 
Cooperative Threat Reduction (CTR) Program in the Former Soviet Union 
(FSU) since 1994 and chaired the National Academies of Science, 
National Research Council committee which provides technical review to 
the CTR-supported research conducted there since 1998. I am also a 
current member of the National Academies of Science standing Committee 
on International Security and Arms Control (CISAC), the Threat 
Reduction Advisory Committee (TRAC) of the Defense Threat Reduction 
Agency (DTRA) and I chair the International Panel of the National 
Science Advisory Board for Biosecurity (NSABB) at the Department of 
Health and Human Services. The myriad opportunities given to me 
throughout my career in military medical research have led me to better 
understand and value the use of science as a common language to build 
relationships, understanding and transparency internationally.
    This committee has asked that I provide thoughts on reducing 
biological threats at the source. Below are my views on a number of 
related issues.
    There are no perfect technical solutions-or combination of 
solutions---to the threat of bioterrorism in our nation. The microbes 
needed are too readily available in nature and the tools needed to 
transform microbes into weapons also are too accessible to allow us to 
control their illicit use. The technologies, the facilities and the 
humans involved are too widespread and of "dual-use" for our 
intelligence community to discover their malevolent use. As the 
technical barriers to the abuse of biology fall, `intent' to harm 
becomes more important in the calculus. At this time in our history, we 
face three trends which synergize to make protecting our citizens from 
biological terrorism extremely difficult: 1) a `smaller world', 2) a 
biotechnological revolution and 3) a prevalence of asymmetry in 
warfare. Vast oceans and friendly neighbors are not enough to protect 
us today; until we address `intent' to harm with biology and the 
factors which motivate it, we have not done enough.
    The language of science is common and powerful. I believe that 
working directly with scientists internationally is integral to defense 
of the homeland. Doing this has numerous benefits: 1) It builds 
understanding in the very community that has the tools to do harm; 2) 
it provides some transparency and a frame of reference regarding 
legitimate activities around the world and 3) it offers the opportunity 
to build trust between and among scientific collaborators worldwide. 
All of these outcomes reduce the likelihood of proliferation. Although 
we---the U.S. government---have been engaging foreign biological 
scientists [particularly from Russia and Eurasia] aggressively since 
the early 90s, we don't always grasp the importance and value of the 
process. My personal experiences as a scientist-solider and my active 
involvement in biological counter-proliferation and non-proliferation 
programs have allowed me to make the following observations.
    Regarding the biological threat:
         1. History has demonstrated that adequate transparency cannot 
        be legislated, forced or enforced.or compliance assured; its 
        development can be facilitated, however, through frankness, 
        honesty and efficiently administered joint science, technology 
        and public health programs with clear goals.
         2. Human relationships among scientists and clinicians are 
        more effective than technological tools or regulatory regimes 
        in providing transparency; such relationships provide the added 
        benefit of building understanding and even, sometimes, trust.
         3. Although not always possible, the most useful approach in 
        engagement has been to work in true collaborative relationships 
        on mutually beneficial projects. Difficult technical problems 
        related to public health, such as the avian flu threat, are 
        excellent targets of collaboration. These useful and necessary 
        public health relationships engage, generally, the same people, 
        the same technologies and the same facilities that could be 
        used to develop biological weapons.
         4. Historically, the greatest value in our CTR programs has 
        come from personal relationships, facilitated by mutual respect 
        and the common language of science. Intellect, personal 
        integrity and a sense of humor among colleagues are appreciated 
        and respected by scientists worldwide; unfortunately, 
        governments are often not trusted.
         5. The greatest harm in government supported, collaborative 
        undertakings often results from unprofessional communications, 
        disconnects between policy and implementation, empty promises, 
        reward systems with moving `goal posts' and delays in follow-
        through by either party.
         6. The `process' is often more important than the `product'. 
        In biological programs, human factors are more important in 
        providing security than locks, fences or signatures on paper. 
        Working together on a scientific project and failing is more 
        beneficial than succeeding alone. In the end, success will not 
        be related to dollars spent on fences, locks and alarm systems 
        to protect microbes; it will be related to communication and 
        trust built between humans. Metrics will be difficult to apply, 
        but we must stay engaged.
         7. Traditional technical, bureaucratic and regulatory means of 
        providing biological security to the U.S. will ultimately not 
        be enough. Because of the unique characteristics of biology and 
        biotechnology.and the importance of intent in the 
        equation.long-term human relationships leading to whatever 
        transparency we can obtain will remain a key means of reducing 
        the threat to the homeland.
         8. The long-term goal of engagement should be to get the U.S. 
        government out of the process of `supporting' patronage 
        programs, and to get U.S. scientists and public health 
        personnel engaged in true collaborations with international 
        colleagues on tough problems. Finding tough, common, health, 
        biosafety and educational challenges is ever easier as the 
        world shrinks.
         9. This is a dangerous world. Soft programs cannot replace 
        military strength, intelligence and other components of hard 
        power, but are complementary and actually make our hard power 
        more effective. We must find `balance' between hard and soft 
        power.
         10. And finally, we must "Trust, but verify," recognizing that 
        we must find new and innovative approaches to this when dealing 
        with biology and biotechnology.
    I have had the opportunity to travel to Russia two or three times 
per year since 1993. When we started, during the Trilateral 
negotiations and visits, working across conference tables and taking 
part in rigid inspections termed `visits', the tone was contentious and 
the progress slow. I sensed we were building walls, not tearing them 
down.and we learned little about thoughts or activities on the other 
side of the table. Under the auspices of the Nunn-Lugar legislation of 
1992, we slowly established scientific collaborations. First, it was a 
scientific welfare program designed to keep former weaponeers at home 
in Russia. Next we got American scientists involved as collaborators, 
and saw the power of science as a common language. Earlier this month 
in Moscow, our NAS CISAC committee met with our biological counterparts 
from the Russian Academy of Sciences. For the first time, I saw a 
glimpse of a `tipping point' in the way our collaborative work is 
approached. At last, I saw both willingness and a capability on the 
Russian side to transform our relationship from one of patronage to 
partnership. (See "Biological Science and Biotechnology in Russia: 
Controlling Disease and Enhancing Security" @ www.nap.edu ). The 
Russian example is dated--and maybe the easy one--but I believe it 
demonstrates the importance of using our scientific soft power at the 
source of terror along with the hard. Finding balance is always 
difficult, but so necessary. We have had some limited additional 
opportunities in Iraq and Libya and, if given the opportunity, could 
use lessons learned and best practices in other countries as well.
    Again, I appreciate the opportunity to present this information 
before the Committee. I shall be happy to answer your questions.

    Mr. Linder. Thank you, Dr. Franz. We have heard today about 
efforts to secure pathogens abroad. Are we doing enough to 
secure the facilities that hold pathogens in our own country?
    Mr. Franz. I believe we are. I think the Select Agent Rule 
of 1997 and its subsequent beefing up after 9/11 were 
significant efforts. It is still, just as in other countries, 
it comes down to humans, as was mentioned in the first 
comments, and we have now in this country implemented surety 
programs or are implementing surety programs as well as 
security programs, personal liability programs for biology. 
When I was in this lab and running labs for the DOD, we didn't 
have surety programs like you do in nuclear and like we did in 
chemical. We have those as well. So I think we are making a 
significant effort.
    Again, we need balance there. If we go too far in this 
country we are going to limit the capabilities of our 
biotechnology industry and put us behind in the world market in 
this area.
    Mr. Linder. When you were at Ft. Dietrich, were there any 
reports of any missing pathogens or do you keep close enough 
account of them you so you could know that?
    Mr. Franz. We didn't. In the old days, the rules were a lot 
different than they are post-9/11, but after the incident in 
which a gentleman attempted to acquire some plague from the 
American type culture collection in 1995, I believe his name 
was Larry Wayne Harris, the CDC was mandated to develop this 
Select Agent Program, and after that the rules were tightened 
significantly. There have been, as came out in the press after 
10/04, after the anthrax letters, there have been--there were 
some false reports of materials missing from Ft. Dietrich. Most 
of those were killed samples and in almost every case I believe 
they were eventually recovered and found.
    Mr. Linder. Would you care to take a shot at my question 
about Russian smallpox.
    Mr. Franz. Yes, sir. That is really under the auspices of 
the World Health Assembly and it is the WHO that works on that 
problem. We have been negotiating since the mid-1990s probably, 
with regard to destruction, to destroy the last of the 
smallpox.
    Mr. Linder. What is your take on that?
    Mr. Franz. My opinion has been all along that we should 
not. Initially, primarily we were working on vaccines, drugs 
and diagnostics. We found that we had adequate models for 
vaccines and diagnostics. We found that there were cases in 
which there would be drugs that would not work against our 
surrogates, but they would work against variola, smallpox 
itself, so we would have been in a position to miss drugs.
    At this point I believe we know enough about rebuilding 
those bugs that it probably doesn't make any difference. And if 
we destroy, I believe it takes away our capabilities to work 
with variola, and yet someone else in the world could rebuild 
the bug either from another orthopox virus or from scratch 
eventually and have it.
    Mr. Linder. Does it startle you--I may have asked you this 
the last time you were here--to know that significant numbers 
of Iranian children are being vaccinated for smallpox today?
    Mr. Franz. I don't have any information on that. I really 
don't know that.
    Mr. Linder. Dr. Khripunov, we know that the managers of 
these facilities in the past under the old Soviet Union lied on 
the reports to their supervisors as to reaching certain quotas. 
They over produce in one quarter, they would underscore their 
numbers so they could--if they under produce they would have to 
overscore their numbers and this entire culture was one of 
lying to superiors.
    If that was the culture, how do you change it so that they 
are living under different rules?
    Mr. Khripunov. You know, Russia is a country yet in 
transition, you know. Certainly it is a shift from one set of 
values and cultural elements to another. What is alarming is 
that this new set of cultural values are yet to be put into 
place. So while this process is in transition, I think this is 
the most difficult period to find ways to keep people 
motivated, complying with rules and regulations, staying away 
from diversion and selling, and this is why I believe this 
Blatislava statement is very, very important. I think in my 
view there is no single more important document than this 
Blatislava statement. Because it opens up ways for us to move 
ahead and think a little bit with the mindset of ordinary 
Russians, you know, who are custodians. Let me reveal you 
something that you may not know.
    The Blatislava statement in English has two words: Security 
culture should apply to custodians and protective forces. And 
it is clear because you don't have to impose, you know, culture 
on military personnel. They have their own rules to operate. In 
the Russian text on the web site of President Putin the word 
``custodians'' is missing. Whether it is anintentional, you 
know, omission or whether interpreters or translators didn't 
know how to translate, you know, this word into Russian, I have 
no way of knowing. But this document, very important document, 
with the word ``custodians'' missing is becoming really 
meaningless. And this is a reflection of the overall status of 
the mindset that it is none of our business. We have guards. We 
have soldiers. And we are just small people, you know, who are 
not very significant. So the Blatislava statement gives us a 
chance to talk about security culture. But what is important is 
that I think the United States should move forcefully in order 
to ratify the amendments to the Physical Protection Convention 
because by elevating, you know, security culture to the level 
of international obligation we may ask, you know, the Russian 
officials you know how you comply with that. Can we cooperate? 
Can we compare standards how we evaluate security culture in 
your country compared to other countries? So security culture 
is very, very important as the--I would say the first line of 
defense at this source because very much depends on the people.
    Mr. Linder. Is there a biological equivalent to the IAEA?
    Mr. Khripunov. Unfortunately, World Health Organization is 
very cautious about assuming any security functions. But it is 
natural because you cannot divide--you cannot draw a very 
distinct dividing line between infectious diseases and what may 
be regarded as biological agents. So WHO is a natural 
organization, but it doesn't have any security related record 
really to draw upon.
    Another option would be to establish, you know, a new 
organization that would be doing it full time concerning 
security, security culture and fighting biological terrorism. 
But that would undercut the prestige of the WHO. My choice 
would be to expand the mandate of the World Health 
Organization.
    Mr. Linder. Your comment, Dr. Franz.
    Mr. Franz. There is actually a small group there run by a 
Dr. Kanisova who call these problems intentional endemics. As 
is mentioned, WHO doesn't like to get involved in security 
anthey have stayed out. They prepare some reports and they have 
been working at the seven regions, WHO regions, on some joint 
meetings to look at biosafety, biosecurity, dual use issues, 
sort of the soft side of these biological terrorism issues.
    Mr. Linder. Is there any agents on the bio side that is not 
dual use?
    Mr. Franz. I am sorry?
    Mr. Linder. Is there any agent on the biological side that 
is not dual use?
    Mr. Franz. I think some are certainly more dual use than 
others. It is hard to abuse certain biological agents so you 
can sort of rank order them in groups or classes.
    Mr. Linder. Mr. Langevin.
    Mr. Langevin. Thank you, gentlemen, for being here today. I 
appreciate them for what they have had to say. Earlier in the 
first panel I raised the issue of National Intelligence Council 
report that has detailed a number of smuggling incidents of 
weapons grade material or nuclear material or nuclear weapon 
components that have been smuggled out of Russia and the former 
Soviet Union. And in addition to that, Mr. Heisinger from the 
Department of Energy has also revealed that his counterpart in 
Russia has informed him that there were over 200 potential 
radiological smuggling incidents last year alone. Clearly the 
issue of proliferation is still a problem, that this nuclear 
material and components have not been totally secured, and it 
appears we have a lot to do before we say we are at a point 
where we are at security at all of these sites where material 
could be smuggled from or components could be smuggled from.
    My question I guess to you is, is this a function of just 
money and would it move us further on the path of securing the 
material if there were abundant resources into programs like 
Nunn-Lugar and the other programs, whether it is at State or 
DOE or DOD? And is it a problem on the other end, on the 
Russian side? They are not putting enough of their own 
resources or is this a just anissue of will and more of a 
political problem?
    Mr. Khripunov. You know, it should be multi-thronged 
approach, more funding, more transparency, severe punishment 
for people who commit such acts. But I think the most important 
thing is to promote public awareness of the threats because the 
public is becoming more and more indifferent to threats of 
terrorism. According to the most latest public opinion poll, 
the threat or concern of terrorism is number 8. It is preceded 
by unemployment, you know, by high cost of medical care, many 
other things. But ironically enough, in a country where 
terrific acts of terrorism were committed, it is number 8 
because the threat perception is misplaced, mostly due to 
official propaganda, mostly due to lingering Cold War 
perception that threats come from NATO, that threats come from 
the United States, from the ABM system to be deployed in the 
United States.
    So what we need to do in addition to any other things, you 
know, is to help, you know, Russian NGOs promote better 
awareness of nuclear security and existing threats. No one is 
doing that. No one is briefing journalists about that. No one 
is working with the public opinion trying to share concerns and 
real risk perceptions. And as a result, there are difficulties. 
People are not deterred from committing horrendous acts of 
diversion, stealing, because they don't understand and they are 
not under the pressure of risk perception.
    Mr. Langevin. Do you have any comment?
    Mr. Khripunov. I would add the rules are absolutely 
different for biology than they are for nuclear and 
radiological. On the one hand, it is probably easier especially 
if you know what you are doing to take out material like 
biological agents because you only need that much, and you 
can't count what you have got there. But on the other hand, it 
is less necessary to smuggle with the exception of smallpox, 
which is locked up in Atlanta and Kosovo. It is less necessary 
to smuggle biological agents because they are available in so 
many places.
    Mr. Langevin. Is that securing the biological agents, is 
that just a function of money or are there other issues, 
political issues in terms of hammering out agreements and 
security?
    Mr. Franz. I think there was mention in the earlier hearing 
of consolidating agents in Russia. For example, what has 
happened over the years is these agents in some of these small 
laboratories have almost become currency. They realize that we 
would like to take them away, and it is like knowledge is power 
here. In some cases biological agents are power and people 
don't want to give them up. And it is pretty hard--even though 
you say you consolidate them all in one laboratory from, let us 
say, five laboratories, it is hard to know you really do 
because all you need to do is keep back that much. It is--you 
can't take a counter there or a measuring device and say yes we 
have got it all. So it is a little--biological is a little 
different than these other sciences.
    Mr. Khripunov. With your permission, in this nuclear field 
it is the same perception, you know. As long as you have 
uranium and plutonium in the view of the top manager you are 
ranked very high in terms of priority for funding, for other 
benefits. If there is a campaign to consolidate and move your 
stockpiles of highly enriched, refined plutonium away you might 
be marginalized as a result. So there is resistance to a 
similar move to consolidate weapon grade materials in Russia.
    Mr. Langevin. And that raises a good point and for both 
securing nuclear material and biological material, the various 
programs that we have in place. How do the Russians, whether it 
is the government or the individuals at these particular 
facilities, how do they view our involvement there? Do they 
look at it as interference and/or do they look at it as working 
cooperatively with them that we are looking to help both them 
and us at the same time?
    Mr. Khripunov. I would say the overall reaction by the 
people involved in this process is positive. I think what we 
have not yet evaluated accurately is the impact of the CTR on 
the good will of people because CTR projects are often 
implemented by Russians. They get money, you know, from 
American contractors. They learn how to deal with foreign 
counterparts. They earn money, and they realize that, you know, 
Westerners are not that dangerous, you know. And their 
intentions are beneficial, you know. And they can drink vodka 
as much as Russians if there is anoccasion to do it.
    So there is a core group of Russians with very positively, 
you know, reacting for these programs. They realize this is a 
window, a door to the West that may help them, you know, to 
prosper.
    But there are also nationalistic, you know, minded people 
who regard that as a threat to their own interests. Let me give 
you one example. A couple of months prior to the Blatislava 
statement, a group of retired Russians made a statement saying 
that Americans want to take all Russian nuclear weapons and 
nuclear material way out of the country. And they asked people 
to volunteer in patrolling the periphery of some sites to 
prevent Americans from going there and taking material out of 
those sites. So it was ridiculous but it was credible to some 
nationalistic minded people there.
    Mr. Franz. I think generally the same principles apply to 
biology. The thing I would add is it has changed and I have 
sort of watched it change over time. Early on in the 1994 and 
1998 time frame it was we are happy to cooperate in any way 
because we need your money, and then they went through a phase 
where they needed our money much less and maybe didn't 
cooperate as much. And I really believe that now we are going 
through a phase where we are working together, as I mentioned 
in my statement. It is looking more--at least in the areas I am 
working--a little more like a partnership and there is more 
willingness to work together anto share some of the financial 
burden, which is great if it continues.
    Mr. Langevin. Thank you.
    Mr. Linder. The gentlelady from the District wishes to 
inquire?
    Ms. Norton. Yes, Mr. Chairman, and I am sorry I wasn't here 
before. I am very interested in the subject matter of this 
hearing and I find the testimony in its own way reassuring. It 
is because of the sophistication of the understanding that it 
imparts about the nature of the threats, how to deal. We live 
in a country where people expect to lock it up anthrow away a 
key and that will take care of it, and one of the things that 
is hard to prepare Americans to understand is that you have 
to--that the government and nobody else can protect you against 
every threat and to condition people to understand that we are 
dealing with something that is not totally in our control. And 
yet not to fear that, that means that you shouldn't go about 
living your life as you always have.
    I hear you saying that essentially we are talking about 
weapons at least of the magnitude that could initially do some 
harm as being fairly easily accessible. Dr. Franz speaks about 
biological weapons being put easily into nature for use, 
malevolent or beneficial.
    Dr. Khripunov, your testimony essentially offers an 
analysis you both just talked about, the small quantities of 
these materials, how easy it is for them to transport it from 
one place to another.
    I am interested. I mean it--and here is my question. It 
seems to come down to delivery systems if one is interested in 
prevention. I want to know if that is true but I particularly 
want to know if it is true because of this recent report about 
the New York subways where we are told that was it al Qaeda, or 
whoever, called off a planned attack of cyanide or some other 
agent that is not exactly esoteric in the New York subways. We 
don't know why.
    Ms. Norton. It caught my attention because I represent the 
District of Columbia, because most of the people who use our 
subways, 200,000 Federal workers, actually, are located in this 
region; that is who really use the subways. There has been very 
little done about the tunnels that these subways travel 
through, a great concern on the part of those who run this 
system, about that matter.
    So my question is, one, what hypothesis would you offer, 
assuming all this to be true about the New York subways, about 
why perhaps it was called off? Because the theories are rampant 
about that. And I would just like, from a scientific point of 
view, to know what theories you might have. And particularly, I 
am interested in whether one of the reasons might have been the 
delivery system for truly doing some harm, because the one 
thing we know about the MO, at least of al Qaeda, is they want 
to do great harm. I would be interested in anything you have to 
say about this recent so-called revelation about the New York 
subway.
    Mr. Khripunov. I am afraid I will have to give you a longer 
rather than shorter answer on that, and one important issue is, 
where is the threshold? Because there was not a single 
meaningful, you know, case of using weapons of mass destruction 
on a larger scale, except Tokyo, Japan. Why they haven't done 
so, I think the main objective is to impact the public, to 
cause panic, to get to the front pages of the world media. And 
as they are successful in doing that using conventional ways of 
terrorism, I think they may be happy to stay with the 
conventional ways of terrorism
    As soon as people start building resilience, as soon as the 
media does not cover that on the first pages, the reaction will 
be, how we can go on to escalate and disintegrate societal 
institutions and impact the public?
    Here comes unconventional ways of committing acts of 
terrorism. And out of the old acts of terrorism, I would put 
aside as something long-term nuclear weapons or improvised 
nuclear devices. It will take some time for terrorists to 
acquire weapons or develop technological skills.
    What is more simple is what we call a dirty bomb; to 
acquire radioactive material, strap conventional explosives and 
explode it in a densely populated area. Why it is, I believe, 
more attractive to the minds of terrorists, you know, 
radiological records are intrinsically associated with nuclear 
weapons; it is something nuclear. It is associated with 
radiation. And we all understand that the population has what 
we call radio-phobia. You know, it is something that was built 
throughout the Cold War period with the bombing of Nagasaki, 
all the movies on the beach with radiation, people, you know, 
dying.
    So terrorists may be gravitating to that type of act of 
terrorism, which is simple technologically; you can acquire 
radiological material or sources of radiation quite easily. You 
can acquire explosives. What is needed is two persons ready to 
sacrifice their lives because of the radiation and the exposure 
to radiation before they explode that device. And the recent 
report of the Department of State about world terrorism, April 
2006, saying that many expatriates who live in western 
countries declare themselves as ready to sacrifice their lives. 
So we even have people who are prepared to commit these acts.
    If you compare that with chemical terrorism, it is a little 
bit, you know, it is a little bit less aggressive. You know, we 
live in a world of toxic materials, and we will not be scared 
as much as we realize an act of radiological terrorism has been 
committed and you know, part of the big city is contaminated 
with radiation. There will be panic. We panic when we face the 
unknown, and radiation is odorless, senseless and very much 
misunderstood by others.
    Let me refer you to the movie, The War of the Worlds. 
Steven Spielberg, who is the director of that movie, said in an 
interview, I made this movie to show that under stressful 
situations and facing the unknown, that society may tend to 
disintegrate. And this is what terrorists may be after.
    Let's take biological weapons--I understand you will not 
agree with me because this is your field--but I think 
biological weapons--we live with diseases, you know. We fight 
bird flu. We try to prevent epidemics, so they are less 
stressful than us facing radiation and dirty bombs.
    And then, for terrorists, you know, any pathogen, you know, 
any contamination by agents may get out of control and kill 
people that are not intended to die. With radiological weapons, 
it is more or less focused. Sorry for the long answer.
    Ms. Norton. Thank you.
    Dr. Franz.
    Mr. Franz. With regard to your first point about the 
availability of biological agents, I mentioned agents. And you 
make a good point about dissemination systems; that is often 
the hard part. Bugs are everywhere. Developing it into a weapon 
is not technically a trivial issue, so that is a good technical 
barrier to those who would harm us with them, and that is good 
news.
    With regard to cyanide, and all I know is what I heard 
briefly in the media, cyanide is not a biological agent, and it 
is not radiological. It is a chemical. We weaponized it in our 
old offensive chemical program. And it doesn't suffer from the 
problems of dissemination that some of the biological agents 
do. A biological agent is a particulate; you have got to put it 
up in the air so people breathe it. It needs to be in a small 
particle, or it will fall out and not be of any danger.
    Cyanide is a vapor, so really all you would need is tanks 
of cyanide or chemicals that in combination would produce 
cyanide in some way in a subway system.
    Ms. Norton. Would you smell it?
    Mr. Franz. Some people can smell cyanide, and some can't. I 
happen to be able to smell cyanide. I used to work in a 
chemical plant, and I can smell it.
    Ms. Norton. Do you have to have a Ph.D. to smell it?
    Mr. Franz. No, it is genetic. It is the way you are wired; 
some people can, and some can't.
    But I would think a barrier to using cyanide in a subway 
system, for example, would be getting it into the area, you 
might need some large tanks, not real large, but you would need 
some tanks. And it would depend on the quantity that you could 
get down there as to how much area you could cover with those 
tubes.
    Ms. Norton. So you doubt that that is what was in the New 
York subway system?
    Mr. Franz. Well, it is a reasonable one to pick.
    Ms. Norton. Yeah, but you have to get some tanks down 
there.
    Mr. Franz. Well, they don't have to be too large. It would 
be possible if you had roller bags, like people that you see 
travelling on subways all the time. So it is not a matter of 
getting it into the air within a system; it is a matter of just 
releasing it from a tank.
    Mr. Linder. Thank you, both.
    You have been very helpful. We appreciate you sharing your 
afternoon with us, and the hearing is adjourned.
    [Whereupon, at 4:55 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
